APPENDIX

APPENDIX
TABLE OF CONTENTS
APPENDIX A
Opinion in the United States Court of Appeals for the Fifth Circuit
(February 17, 2021) ......................................................................................... App. 1
APPENDIX B
Memorandum and Order in the United States District Court Eastern District
of Texas
(July 20, 2020) ................................................................................................. App. 7
APPENDIX C
Amended Petition for a Writ of Error Coram Nobis with Memorandum in
Support in the United States District Court Eastern District of Texas
Sherman Division
(December 3, 2019) ........................................................................................ App. 14
APPENDIX D
Order Denying Petition for Rehearing En Banc in the United States Court of
Appeals for the Fifth Circuit
(April 6, 2021) ................................................................................................ App. 79

i

APPENDIX A

Case: 20-40515

Document: 00515747326

Page: 1

Date Filed: 02/17/2021

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED

February 17, 2021

No. 20-40515
Summary Calendar

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Manpreet Singh,
Defendant—Appellant.
Appeal from the United States District Court
for the Eastern District of Texas
USDC No. 4:17-CR-193
Before Wiener, Southwick, and Duncan, Circuit Judges.
Per Curiam:*
The district court denied Manpreet Singh’s petition for writ of coram
nobis. We affirm.

*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

App. 1

Case: 20-40515

Document: 00515747326

Page: 2

Date Filed: 02/17/2021

No. 20-40515

I
In November 2017, a grand jury indicted Singh on two counts of bank
fraud under 18 U.S.C. § 1344(2), accusing him of fraudulently inducing
several banks to issue loans to companies he owned or controlled. In February
2018, Singh pled guilty to one of the counts in exchange for dismissing the
other. In his plea agreement, Singh agreed not to contest the amount of
restitution on the pled count and acknowledged that the government might
seek restitution for the dismissed count. He also waived his right to appeal,
reserving only the right to challenge any punishment beyond the statutory
maximum and to pursue a claim of ineffective assistance of counsel.
Singh’s

presentence

investigation

report

(PSR)

ultimately

recommended he pay $3,430,947.53 in restitution, reflecting the total loss
suffered by the banks after Singh defaulted on the fraudulently induced loans.
Singh initially objected to this amount but dropped his objection at
sentencing. The court ordered Singh to pay the PSR-recommended amount
in restitution. Singh subsequently appealed. See United States v. Singh, No.
18-40817 (5th Cir. Aug. 31, 2018). He did not challenge the restitution award
but only several special conditions of his supervised release. We dismissed
his appeal based on the appeal waiver in his plea agreement.
Singh then petitioned the district court for a writ of coram nobis. See
Puente v. United States, 676 F.2d 141, 145 n.2 (5th Cir. 1982) (explaining coram
nobis is a “writ of ancient common law origin . . . still available in criminal
matters under the All Writs Statute” that permits an individual to challenge
the “adverse collateral consequences” of a conviction “even though his
sentence ha[s] already been served”). Singh’s petition challenged only the
restitution award, arguing a significant portion was a “windfall to successor
banks who were not harmed by Singh’s conduct.” It also attacked his trial
counsel for failing to adequately investigate the facts pertinent to restitution

2

App. 2

Case: 20-40515

Document: 00515747326

Page: 3

Date Filed: 02/17/2021

No. 20-40515

and failing to object to the amount at sentencing. The district court denied
Singh’s petition and he appeals.
II
“On appeal from a district court’s denial of a petition for a writ of
coram nobis, we review factual findings for clear error, questions of law de
novo, and the district court’s ultimate decision to deny the writ for abuse of
discretion.” Santos-Sanchez v. United States, 548 F.3d 327, 330 (5th Cir.
2008), cert. granted, judgment vacated on other grounds, 559 U.S. 1046 (2010).
III
We find no reversible error in the district court’s denial of Singh’s
petition.
First, the court correctly noted that the Mandatory Victim’s
Restitution Act (MVRA), 18 U.S.C. § 3664(o), the statute that governs
federal restitution, “‘sharply limit[s] a district court’s discretion” to modify
restitutionary orders. United States v. Singh, No. 4:17-CR-193, 2020 WL
4192899, at *2 (E.D. Tex. July 20, 2020) (quoting United States v. Puentes,
803 F.3d 597, 607 (11th Cir. 2015)). The court explained that the MVRA
permits “a downward adjustment to a restitution order” only by way of a
motion made pursuant to Rule 35 of the Federal Rules of Criminal Procedure
or after a successful direct appeal. Id. This conclusion is consistent with our
precedents rejecting the possibility of collateral attacks on restitution awards.
See United States v. Parker, 927 F.3d 374, 381 n.9 (5th Cir. 2019) (collecting
authorities rejecting various collateral attacks on restitution orders, including
via garnishment, audita querela, and an immigration law petition for review);
see also United States v. Hatten, 167 F.3d 884, 887 (5th Cir. 1999)
(“[R]estitution may not be addressed in § 2255 [habeas] proceedings.”).

3

App. 3

Case: 20-40515

Document: 00515747326

Page: 4

Date Filed: 02/17/2021

No. 20-40515

Second, as the court noted, Singh is currently incarcerated, and “it is
well established that a writ of coram nobis is not available to a petitioner who
is in custody.” Singh, 2020 WL 4192899, at *3 (citing, inter alia, Duckett v.
Davis, 800 F. App’x 289, 290 (5th Cir. 2020)); see also Chaidez v. United
States, 568 U.S. 342, 345 n.1 (2013) (“A petition for a writ of coram nobis
provides a way to collaterally attack a criminal conviction for a person . . .
who is no longer ‘in custody’ and therefore cannot seek habeas relief under
28 U.S.C. § 2255 or § 2241.”); accord Jimenez v. Trominski, 91 F.3d 767, 768
(5th Cir. 1996) (“The writ of coram nobis is an extraordinary remedy available
to a petitioner no longer in custody . . . .”).
AFFIRMED.

4

App. 4

Case: 20-40515

Document: 00515747349

Page: 1

Date Filed: 02/17/2021

United States Court of Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK

LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

February 17, 2021
MEMORANDUM TO COUNSEL OR PARTIES LISTED BELOW
Regarding:

Fifth Circuit Statement on Petitions for Rehearing
or Rehearing En Banc

No. 20-40515

USA v. Singh
USDC No. 4:17-CR-193-1

Enclosed is a copy of the court's decision. The court has entered
judgment under Fed. R. App. P. 36. (However, the opinion may yet
contain typographical or printing errors which are subject to
correction.)
Fed. R. App. P. 39 through 41, and 5TH Cir. R. 35, 39, and 41 govern
costs, rehearings, and mandates. 5TH Cir. R. 35 and 40 require you
to attach to your petition for panel rehearing or rehearing en
banc an unmarked copy of the court's opinion or order.
Please
read carefully the Internal Operating Procedures (IOP's) following
Fed. R. App. P. 40 and 5TH Cir. R. 35 for a discussion of when a
rehearing may be appropriate, the legal standards applied and
sanctions which may be imposed if you make a nonmeritorious
petition for rehearing en banc.
Direct Criminal Appeals. 5TH Cir. R. 41 provides that a motion for
a stay of mandate under Fed. R. App. P. 41 will not be granted
simply upon request. The petition must set forth good cause for
a stay or clearly demonstrate that a substantial question will be
presented to the Supreme Court. Otherwise, this court may deny
the motion and issue the mandate immediately.
Pro Se Cases.
If you were unsuccessful in the district court
and/or on appeal, and are considering filing a petition for
certiorari in the United States Supreme Court, you do not need to
file a motion for stay of mandate under Fed. R. App. P. 41. The
issuance of the mandate does not affect the time, or your right,
to file with the Supreme Court.
Court Appointed Counsel. Court appointed counsel is responsible
for filing petition(s) for rehearing(s) (panel and/or en banc) and
writ(s) of certiorari to the U.S. Supreme Court, unless relieved
of your obligation by court order. If it is your intention to
file a motion to withdraw as counsel, you should notify your client
promptly, and advise them of the time limits for filing for
rehearing and certiorari.
Additionally, you MUST confirm that
this information was given to your client, within the body of your
motion to withdraw as counsel.

App. 5

Case: 20-40515

Document: 00515747349

Page: 2

Date Filed: 02/17/2021

Sincerely,
LYLE W. CAYCE, Clerk

By: _______________________
Nancy F. Dolly, Deputy Clerk
Enclosure(s)
Mr. Bruce Edward Anton
Mr. Thomas Edward Gibson
Mr. Bradley Elliot Visosky

App. 6

APPENDIX B

Case 4:17-cr-00193-MAC-KPJ Document 85 Filed 07/20/20 Page 1 of 7 PageID #: 592

UNITED STATES DISTRICT COURT

UNITED STATES OF AMERICA
versus
MANPREET SINGH

EASTERN DISTRICT OF TEXAS

§
§
§
§
§

CASE NO. 4:17-CR-193

MEMORANDUM AND ORDER
Pending before the court are Defendant Manpreet Singh’s (“Singh”) Petition for a Writ of
Error Coram Nobis (#75) and Amended Petition for a Writ of Error Coram Nobis (#80), wherein
Singh seeks to modify the amount of restitution ordered by the court. The Government filed
responses in opposition (#s 77, 83). Having considered the petitions, the submissions of the
parties, and the applicable law, the court is of the opinion that the petitions should be denied.
I.

Background
On November 8, 2017, Singh was charged by indictment with two counts of bank fraud,

in violation of 18 U.S.C. § 1344(2), for executing a scheme to obtain construction loans for
various entities he controlled under false pretenses. Count One of the Indictment alleges that
Singh provided misleading financial statements to obtain a loan of approximately $4,035,600.00
to construct a hotel in Royse City, Texas. Singh later defaulted on his obligations, resulting in
approximate losses to Texas Leadership Bank in the amount of $1,337,322.31 and to Independent
BankersBank in the amount of $778,740.00. Count Two of the Indictment alleges that Singh
provided misleading financial statements to obtain a loan of approximately $6,071,200.00 from
Southwest Securities, FSB, to construct a hotel in Plano, Texas. Singh later defaulted on his
obligations, resulting in an approximate loss to Southwest Securities, FSB, in the amount of
$1,614,885.22.

App. 7

Case 4:17-cr-00193-MAC-KPJ Document 85 Filed 07/20/20 Page 2 of 7 PageID #: 593

On February 28, 2018, pursuant to a non-binding plea agreement, Singh pleaded guilty to
Count One. The plea agreement states:
The defendant understands that restitution may be ordered by the Court.
The defendant agrees that restitution in this case is not limited to the offense of
conviction and may include restitution for all losses caused by the defendant’s
criminal conduct, even if such losses resulted from crimes not charged or admitted
by the defendant in the factual statement. The defendant waives any defense or
objection to any action to enforce the collection of the financial obligations to be
imposed in connection with this prosecution, including, but not limited to, all
collection procedures authorized by 28 U.S.C. § 3001, 18 U.S.C. § 3664(j)(2), or
18 U.S.C. § 3613(f).
The parties further stipulate that the current unreimbursed losses caused by
the defendant’s criminal violations are $1,778,740.00 and that this is the
appropriate amount should the Court order restitution. The Government reserves
the right to seek further restitution related to the charge in Count 2 of the
indictment. The defendant agrees to pay full restitution to the victims on the count
of conviction and all relevant conduct. The defendant understands that the amount
of restitution owed will be determined at or before sentencing. The parties
understand that the Court is not bound by these stipulations.
Moreover, Singh waived the right to appeal and agreed not to contest his conviction, sentence,
fine, order of restitution, or order of forfeiture in a post-conviction proceeding. Singh reserved
the right to appeal punishment imposed in excess of the statutory maximum and to appeal or seek
collateral review of a claim of ineffective assistance of counsel.
United States Probation and Pretrial Services (“Probation”) prepared Singh’s Presentence
Investigation Report (“PSR”). Probation determined initially that the actual intended loss amount
was $10,106,800.00 but concluded that Singh should be held accountable for a total actual loss
amount of $3,430,947.53. Specifically, Texas Leadership Bank suffered a loss of approximately
$1,337,322.31, less $300,000.00 paid to settle civil litigation, Independent BankersBank suffered
a loss of approximately $778,740.00, and Southwest Securities, FSB, suffered a loss of
approximately $1,614,885.22. Defense counsel filed Objections (#36) to the PSR, arguing that
2

App. 8

Case 4:17-cr-00193-MAC-KPJ Document 85 Filed 07/20/20 Page 3 of 7 PageID #: 594

the appropriate loss amount was $1,778,740.00.

The Government filed a Sentencing

Memorandum (#40) to support calculation of the loss amount for Southwest Securities, FSB. At
the sentencing hearing on August 16, 2018, defense counsel withdrew all the objections, and the
court sentenced Singh to 33 months of imprisonment followed by a 5-year term of supervised
release. The court ordered Singh to pay restitution in the amount of $3,430,947.53 and assessed
a fine of $15,000.00. Singh appealed the court’s imposition of special conditions of supervised
release, which were not announced at sentencing. The Government moved to dismiss the appeal
based on the appellate waiver in the plea agreement, which the United States Court of Appeals for
the Fifth Circuit granted on January 22, 2019.
Singh filed his initial petition for a writ of coram nobis on September 5, 2019, and
amended the petition on December 3, 2019. According to Singh, the court may consider his
claims via a writ of coram nobis because he cannot challenge the restitution amount in a 28 U.S.C.
§ 2255 proceeding and other relief is unavailable. Singh asserts that counsel was ineffective for
failing to investigate the facts surrounding the loan transactions, the losses suffered, and the
agreements between the banks, successor banks, and Singh and for failing to object to the amount
of restitution set forth in the PSR. In response, the Government maintains that Singh, who is
currently serving his term of imprisonment and has a projected release date of February 15, 2021,
cannot seek a writ of coram nobis, which is available only to a petitioner who is no longer in
custody. The Government further contends that the restitution calculations were accurate and
supported by the evidence. Singh requests that the court reset his case for sentencing or, in the
alternative, set an evidentiary hearing, suspend consideration of the writ until his release from
imprisonment, or dismiss the petition without prejudice to refiling.

3

App. 9

Case 4:17-cr-00193-MAC-KPJ Document 85 Filed 07/20/20 Page 4 of 7 PageID #: 595

II.

Analysis
Under the Mandatory Victim’s Restitution Act (“MVRA”), an order of restitution is a final

judgment and can be modified only in limited circumstances. 18 U.S.C. § 3664(o); United States
v. Puentes, 803 F.3d 597, 599 (11th Cir. 2015) (noting that § 3664(o) “provides an exhaustive
list of the ways in which a mandatory restitution order can be modified”); United States v. Wyss,
744 F.3d 1214, 1217-19 (10th Cir. 2014); United States v. Grant, 715 F.3d 552, 557 (4th Cir.
2013); United States v. Lyon, 374 F. Supp. 3d 605, 612-13 (N.D. Tex. 2019); United States v.
Rooney, No. 3:01-CR-231-D, 2014 WL 3865974, at *3-4 (N.D. Tex. Aug. 6, 2014). As the
United States Court of Appeals for the Eleventh Circuit noted, “[r]eading the MVRA as a whole,
it is clear that Congress intended to sharply limit a district court’s discretion over restitution.”
Puentes, 803 F.3d at 607 (holding that § 3664(o) is the exclusive means through which a district
court can modify a restitution order); see Lyon, 374 F. Supp. 3d at 612-13. Based on the express
language of the MVRA, a court can make a downward adjustment to a restitution order only under
Rule 35 of the Federal Rules of Criminal Procedure or through a direct appeal pursuant to 18
U.S.C. § 3742. See 18 U.S.C. § 3664(o)(1)(A), (B); cf. 18 U.S.C. § 3664(o)(1)(C),(D) and (2)
(identifying situations allowing the imposition of a higher amount of restitution against a
defendant). Neither Rule 35 nor Section 3742 is applicable here.
Rule 35 allows a sentence to be corrected based on a clerical error within fourteen days
from the entry of judgment or in a situation where a defendant has provided substantial assistance
to the Government. FED. R. CRIM. P. 35. Singh does not allege a clerical error, his request to
modify the restitution amount was not filed within fourteen days after the entry of judgment, and
the Government has not sought to reduce Singh’s restitution amount based on his assistance. See

4

App. 10

Case 4:17-cr-00193-MAC-KPJ Document 85 Filed 07/20/20 Page 5 of 7 PageID #: 596

FED. R. CRIM. P. 35(a), (b). Section 3742 is also inapplicable because Singh did not object to the
restitution calculation in the PSR at sentencing or challenge the restitution order on appeal. See
18 U.S.C. § 3664(o)(1)(B) (stating that an order of restitution “can subsequently be appealed and
modified under section 3742”); United States v. Arviso-Mata, 442 F. 3d 382, 384 (5th Cir.)
(discussing the differences between waiver and forfeiture and stating that “[f]orfeited errors are
reviewed under the plain error standard”), cert. denied, 547 U.S. 1156 (2006); see also United
States v. Olano, 507 U.S. 725, 733-34 (1993). Singh’s plea agreement states that he “reserves
the right to appeal any punishment imposed in excess of the statutory maximum.” Therefore,
Singh’s appeal waiver contained in his plea agreement did not prevent him from filing an appeal
because a restitution order that exceeds the MVRA constitutes a punishment in excess of the
statutory maximum. United States v. Desouza, 630 F. App’x 339, 340 (5th Cir. 2016) (citing
United States v. Chem. & Metal Indus, Inc., 677 F.3d 750, 752 (5th Cir. 2012)).
Here, Singh maintains that he can seek a writ of coram nobis because no other relief is
available. “[T]he writ of coram nobis is an extraordinary remedy to correct errors ‘of the most
fundamental character.’” United States v. Esogbue, 357 F.3d 532, 535 (5th Cir. 2004) (quoting
United States v. Morgan, 346 U.S. 502, 512 (1954)); see United States v. Denedo, 556 U.S. 904,
911 (2009). The All Writs Act authorizes the court of conviction to issue a writ of coram nobis.
See 28 U.S.C. § 1651(a) (“The Supreme Court and all courts established by Act of Congress may
issue all writs necessary or appropriate in aid of their respective jurisdictions and agreeable to the
usages and principles of law.”); Denedo, 556 U.S. at 911; Morgan, 346 U.S. at 506-07. A
petitioner may obtain coram nobis relief only when no other remedy is available and the petitioner

5

App. 11

Case 4:17-cr-00193-MAC-KPJ Document 85 Filed 07/20/20 Page 6 of 7 PageID #: 597

has “sound reasons” for failing to seek appropriate relief earlier. Esogbue, 357 F.3d at 535 (citing
United States v. Dyer, 136 F.3d 417, 422 (5th Cir. 1998)); see Morgan, 346 U.S. at 512.
Singh is correct that he cannot challenge the court’s order of restitution through a
proceeding under 28 U.S.C. § 2255. See United States v. Hatten, 167 F.3d 884, 887 (5th Cir.
1999) (“[C]omplaints concerning restitution may not be addressed in § 2255 proceedings. . . .
[T]he types of claims cognizable under § 2255 were limited to ‘claims relating to unlawful
custody,’ not those relating ‘only to the imposition of a fine.’” (quoting United States v. Segler,
37 F.3d 1131, 1137 (5th Cir. 1994))). Nevertheless, Singh is currently serving a term of
imprisonment, and it is well established that a writ of coram nobis is not available to a petitioner
who is in custody. Duckett v. Davis, 800 F. App’x 289, 290 (5th Cir. 2020) (citing Jimenez v.
Trominski, 91 F.3d 767, 768 (5th Cir. 1996)); Esogbue, 357 F.3d at 534; Hatten, 167 F.3d at 887
n.6 (citing United States v. Castro, 26 F.3d 557, 559 (5th Cir. 1994)). Moreover, in this context,
a petitioner is considered to be “in custody” when he has been released from imprisonment and
is serving a term of supervised release or is on parole. Maleng v. Cook, 490 U.S. 488, 491
(1989); see United States v. Scruggs, 691 F.3d 660, 662 n.1 (5th Cir. 2012) (stating that a
defendant serving his term of supervised release was “in custody”), cert. denied, 568 U.S. 1162
(2013). Accordingly, Singh lacks standing to challenge the court’s restitution order or to assert
a claim of ineffective assistance of counsel through a writ of coram nobis.
Even if Singh were not in custody, the Fifth Circuit has held that “[a] district court lacks
jurisdiction to modify a restitution order under § 2255, a writ of coram nobis, or ‘any other federal
law.’” Campbell v. United States, 330 F. App’x 482, 483 (5th Cir. 2009) (quoting Hatten, 167
F.3d at 886-87 & nn.3, 6); see United States v. Parker, 927 F.3d 374, 381 n.9 (5th Cir. 2019)

6

App. 12

Case 4:17-cr-00193-MAC-KPJ Document 85 Filed 07/20/20 Page 7 of 7 PageID #: 598

(collecting cases rejecting collateral attacks on restitution orders). As previously discussed,
disputes as to the proper amount or type of restitution should be argued before the sentencing
court, and challenges to the restitution portion of a sentence should be raised on direct appeal. See
18 U.S.C. § 3664(e); Campbell, 330 F. App’x at 482-83 (citing Hatten, 167 F.3d at 887 n.5;
Segler, 37 F.3d at 1135). Therefore, Singh has no avenue for relief from the court’s restitution
order even if the court were to set an evidentiary hearing, suspend consideration of the writ until
his release from imprisonment, or dismiss the petition without prejudice to refiling.
III.

Conclusion
Consistent with the foregoing analysis, Singh’s Petition for a Writ of Error Coram Nobis

(#75) and Amended Petition for a Writ of Error Coram Nobis (#80) are DENIED.
SIGNED at Beaumont, Texas, this 20th day of July, 2020.

________________________________________
MARCIA A. CRONE
UNITED STATES DISTRICT JUDGE

7

App. 13

APPENDIX C

Case 4:17-cr-00193-MAC-KPJ Document 80 Filed 12/03/19 Page 1 of 22 PageID #: 517

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TEXAS
SHERMAN DIVISION
MANPREET SINGH
Movant
v.
UNITED STATES OF AMERICA

§
§
§
§
§
§
§

Crim No: 4:17-CR-00193-1

AMENDED PETITION FOR A WRIT OF ERROR CORAM NOBIS
WITH MEMORANDUM IN SUPPORT
TO THE HONORABLE PRESIDING JUDGE:
COMES NOW MANPREET SINGH, Defendant and “Petitioner”, and
submits this amended petition with memorandum in support for a writ of coram
nobis 1 challenging the order of restitution imposed by the Court on August 24, 2018.
In support, Petitioner would show the Court the following:
I. Statement of the case
Singh was charged by indictment with two counts of bank fraud in violation
of 18 U.S.C. § 1344(2). The indictment alleged that Singh executed a scheme to
defraud Texas Leadership Bank (Count One) and Southwest Securities, FSB (Count

Singh, through undersigned counsel, filed the original petition for a writ of error coram nobis on September 5,
2019. Dkt. No. 75. The government filed a response and Singh a reply. Dkt. Nos. 76 & 77. Singh attempted to file a
Supplement to his petition and was directed by the clerk of court to incorporate the document into the original and
thus, counsel files this amended petition, which corrects information related to the loan and restitution involving
Southwest Securities bank.

1

1
App. 14

20-40515.262

Case 4:17-cr-00193-MAC-KPJ Document 80 Filed 12/03/19 Page 2 of 22 PageID #: 518

Two), in loan transactions by including false and fraudulent material representations
about his liabilities as set forth in personal financial statements. Dkt. 1. The
government alleged that Singh included false statements regarding his financial
position or indebtedness in applications for construction loans he obtained for the
construction of hotels. Id.
On February 28, 2018, Singh appeared with counsel and, pursuant to a plea
agreement with the government, pleaded guilty to count one of the indictment. Dkt.
22. Singh further stipulated that he requested a construction loan from Texas
Leadership Bank and in the loan request he misrepresented his total indebtedness.
Dkt. 24. Texas Leadership Bank, with a participation agreement with Independent
Bankers bank, then entered into a loan agreement with Royse City Hospitality, LLC,
Singh’s hotel company, for $4,035,600. Id. Singh used the loan proceeds for
payments for construction of a hotel in Royse City by his company Royse City
Hospitality, LLC. Id. Although construction was completed, Royse defaulted on the
required loan payments. Id. Singh stipulated in his plea agreement that $1,778,740
was the appropriate amount of restitution as to count one and the government
reserved the right to seek additional restitution related to the charge in count two.
Dkt. 22. In his plea agreement, Singh waived his right to appeal the conviction or
restitution and agreed not to contest the conviction or restitution in any postconviction proceeding. Dkt. 22. Singh reserved the right, however, to seek collateral
2
App. 15

20-40515.263

Case 4:17-cr-00193-MAC-KPJ Document 80 Filed 12/03/19 Page 3 of 22 PageID #: 519

review of a claim of ineffective assistance of counsel. Id.
In preparation for sentencing, United States Probation prepared a presentence
report (“PSR”). The PSR concluded that Texas Leadership Bank and Independent
Banker Bank suffered a loss of $1,337,322.31 and $778,740 respectively with regard
to the $4,035,600 loan issued to Royse City Hospitality. PSR ¶ 10-12. As to Texas
Leadership Bank, the PSR deducted $300,000 from the loss/restitution amount
pursuant to a March 11, 2015 civil settlement between the parties. PSR ¶ 13. The
PSR also noted, without further explanation, that Texas Leadership Bank is now
Guarantee Bank. PSR ¶ 6, 18. The PSR included no explanation of any losses
suffered by Guarantee Bank in acquiring Texas Leadership Bank.
Additionally, the PSR included in its loss calculation a construction loan
Singh obtained from Southwest Securities, FSB, on behalf of his company SWHG
Management, for the purpose of construction of a hotel in Plano, Texas. PSR ¶ 14.
In this loan request too, Singh allegedly misrepresented his mortgage indebtedness.
PSR ¶ 15. A construction loan was authorized for a total of $6,071,200. Id. After
hotel construction was completed, SWHG defaulted on the required loan payments
resulting in a loss of $1,614,885.22 2, according to the PSR. PSR ¶ 16. Southwest
Securities sold SWHG’s loan to a third party and was later purchased by Plains

The original PSR reported an “approximate loss” of $1,614,000 as to Southwest Securities, FSB, which was
amended in the PSR Addendum pursuant to an objection filed by the government indicating that Southwest
Securities, FSB, had provided a spreadsheet indicating their loss amount was $1,614,885.22.

2

3
App. 16

20-40515.264

Case 4:17-cr-00193-MAC-KPJ Document 80 Filed 12/03/19 Page 4 of 22 PageID #: 520

Capital Bank in 2015. See Dkt. 40-1. 3 No information about the sale of the mortgage
or successor lender was provided in the PSR. As a result of these figures, the PSR
concluded that Singh secured, from these three lending institutions, loans totaling
$10,106,800, and that the “actual loss” suffered by three lending institutions was
$3,430,947.53. PSR ¶ 17. The PSR concluded that Singh owed restitution in the
following amounts:
Institution

Amount

Texas Leadership Bank

$1,037,322.31

Independent Banker bank

$778,740.00

Southwest Securities, FSB

$1,614,885.22

Through counsel, Singh filed a single objection to the PSR arguing that the
total loss amount should be $1,778,740, for the losses suffered by Texas Leadership
Bank and Independent Bankers Bank. Dkt. No. 36. No objection was filed regarding
restitution. At sentencing, Singh, through trial counsel, withdrew the single objection
and affirmed to the court that he had no comments, additions, or corrections to the
PSR. Ultimately, the court sentenced Singh to 33 months’ imprisonment,
$3,430,947.53 in restitution, $15,000 fine, a $100 special assessment, and supervised
release for a term of five years. The restitution was ordered as follows:
3

This information is provided by the Government in its sentencing memorandum regarding restitution.

4
App. 17

20-40515.265

Case 4:17-cr-00193-MAC-KPJ Document 80 Filed 12/03/19 Page 5 of 22 PageID #: 521

• $1,037.322.31 to Guaranty Bank & Trust (acquired Texas Leadership Bank)
• $1,614,885.22 to Plains Capital Bank (acquired Southwest Securities)
• $778,740.00 to Texas Independent Bankers Bank
The court also ordered Singh to sell specific and real property to satisfy the
restitution and fine, to wit: 613 Twin Valley Drive, Murphy, Texas – Singh’s second
family home, and Singh’s 50% business interested in Hotel Tru by Hilton in Garland,
Texas. Singh appealed the district court’s imposition of special conditions of
supervised release, which were not announced at sentencing. However, based on the
waiver of appeal provision in his plea agreement, the appeal was dismissed.
II. Procedural Considerations
The scope of post-conviction relief pursuant to 28 U.S.C. § 2255 is limited.
The statute affords judicial review only for constitutional errors and other issues that
(1) could not have been raised on direct appeal and (2) would result in a miscarriage
of justice if left unaddressed. See United States v. Faubion, 19 F.3d 226, 233 (5th
Cir. 1994). Before a movant may raise an issue for the first time in a § 2255
proceeding, he must show cause for his procedural default in failing to raise the issue
on appeal and actual prejudice resulting from the error. United States v. Shaid, 937
F.2d 228, 232 (5th Cir. 1991); United States v. Frady, 456 U.S. 152, 168 (1982).
However, “there is no procedural default for failure to raise an ineffectiveassistance claim on direct appeal” because “requiring a criminal defendant to bring
5
App. 18

20-40515.266

Case 4:17-cr-00193-MAC-KPJ Document 80 Filed 12/03/19 Page 6 of 22 PageID #: 522

[such] claims on direct appeal does not promote the objectives” of the procedural
default doctrine, “to conserve judicial resources and to respect the law’s important
interest in the finality of judgments.” Massaro v. United States, 538 U.S. 500, 50304 (2003). This is because the record on appeal typically does not disclose the facts
necessary to decide an ineffective assistance of counsel claim. See United States v.
Isgar, 739 F.3d 829, 841 (5th Cir. 2014) (“Sixth Amendment claims of ineffective
assistance of counsel should not be litigated on direct appeal, unless they were
previously presented to the trial court.”). That is exactly the case here, as no claim
of ineffective assistance of counsel had been previously presented to the trial court.
Furthermore, because Singh is only challenging the order of restitution, which is not
cognizable in a 2255 motion, a writ of coram nobis is appropriate for this court to
consider his claims. See United States v. Hatten, 167 F.3d 884, 887 (5th Cir. 1999)
(complaints concerning restitution may not be addressed in 2255 proceedings); see
United States v Mischler, 787 F.2d 240 (7th Cir. 1986) (claim of excessive restitution
ground for coram nobis relief).
A coram nobis is a vehicle to mount a post-conviction collateral challenge to
a judgment. Black’s Law Dictionary, 304-05 (5th ed. 1979). “The All Writs Act, 28
U.S.C. § 1651, authorizes federal coram nobis relief, an extraordinary
postconviction remedy for those convicted in a federal district court…” Nowlin v.
United States, 81 F.Supp. 3d 514, 520 (N.D. Miss. 2015) (citing Federal
6
App. 19

20-40515.267

Case 4:17-cr-00193-MAC-KPJ Document 80 Filed 12/03/19 Page 7 of 22 PageID #: 523

Postconviction Remedies and Relief Handbook § 2:20, Donald E. Wilkes). “The
federal coram nobis remedy ‘is of the same general character as one under 28 U.S.C.
§ 2255’ with substantially the same grounds for relief – the ground for relief must
involve fundamental error, whether jurisdictional, constitutional, or otherwise.” Id
(citing United States v. Morgan, 346 U.S. 502 (1954)). “A coram nobis proceeding
under 28 U.S.C. § 1651 is not a civil action; it is, instead, a post-sentencing phase of
the original criminal prosecution giving ruse to the challenged conviction.” Id (citing
United States v. Denedo, 556 U.S. 904 (2009). A defendant “need not be in custody”
when seeking coram nobis relief and coram nobis relief is barred when another
remedy is available such as a § 2255 Motion. Id (citing United States v. Marcello,
876 F.2d 1147 (5th Cir. 1989). However, as discussed above, Section 2255 relief is
not available for a convicted defendant challenging restitution alone. See Hatten,
167 F.3d at 887.
Coram Nobis relief is generally available to a defendant if: “(1) the ground for
relief involves fundamental error; (2) no other judicial remedy, such as relief under
28 U.S.C. § 2255, is currently available; (3) the defendant can show valid reasons
for failing to seek relief earlier; and (4) as a result of the conviction, the convicted
person is suffering or threatened with adverse collateral consequences.” See Nowlin,
81 F.Supp.3d at 521. “Should the defendant prevail in a coram nobis proceeding, the
court usually provides relief in the form of the vacatur and setting aside of the invalid
7
App. 20

20-40515.268

Case 4:17-cr-00193-MAC-KPJ Document 80 Filed 12/03/19 Page 8 of 22 PageID #: 524

conviction. Courts have also provided relief by requiring reimbursement of
restitution paid by the defendant.” Id (internal citations omitted) (citing Mischler,
787 F.2d 240).
Accordingly, this claim is not barred by the law nor is it barred by Singh’s
plea agreement.4 Although Singh’s plea agreement contained a waiver of appeal, he
specifically reserved the right to seek collateral review of a claim of ineffective
assistance. (Dkt. 22). That is not a claim that could have been properly raised on
direct appeal and he is unable to seek relief through a 2255 motion. Therefore, this
petition for coram nobis is ripe for this Court’s consideration.
III. Strickland
The Sixth Amendment guarantees criminal defendants the effective assistance
of counsel. Strickland v. Washington, 466 U.S. 668, 689 (1984). Under the twoprong Strickland standard, a movant must show defense counsel’s performance was
both deficient, meaning it fell below an objectively reasonable standard, and such
deficient performance prejudiced the defendant. Id. at 687-94.
Considering the first prong assessing deficient performance courts “must
determine whether there is a gap between what counsel actually did and what a
reasonable attorney would have done under the circumstances.” Neal v. Puckett, 286

Singh incorporated by reference those arguments contained in his reply to the government’s response regarding the
government’s primary contention that Singh is unable to obtain relief via a petition for a writ of error coram nobis
because he is currently incarcerated. See Dkt. No. 78.

4

8
App. 21

20-40515.269

Case 4:17-cr-00193-MAC-KPJ Document 80 Filed 12/03/19 Page 9 of 22 PageID #: 525

F.3d 230, 236 (5th Cir. 2002) (en banc). Even a single error of counsel may support
a claim of ineffective assistance if it was of such magnitude that it rendered the trial
fundamentally unfair. See Summit v. Blackburn, 795 F.2d 1237, 1244-45 (5th Cir.
1986). If counsel’s performance was deficient, “[t]he defendant must show that there
is a reasonable probability that, but for counsel’s unprofessional errors, the results
of the proceeding would have been different. A reasonable probability is a
probability sufficient to undermine confidence in the outcome.” Strickland, 466 U.S.
at 694. In the sentencing context, then, the movant must demonstrate that counsel’s
deficiency created a reasonable probability that his sentence would have been less
harsh had the attorney not been deficient. See Glover v. United States, 531 U.S. 198,
200 (2001). Counsel, “at a minimum,” has a duty to “make an independent
investigation of the facts and circumstances in the case.” Nealy v. Cabana, 764 F.2d
1173, 1176-77 (5th Cir. 1985); see also United States v. Phillips, 210 F.3d 345, 348
(5th Cir. 2000) (an attorney must “research relevant facts and law or make an
informed decision that certain avenues will not be fruitful.”).
IV. Mandatory Victim’s Restitution Act (“MVRA”)
At sentencing, the government bears the burden of establishing the loss
suffered by a victim as a result of the offense. 18 U.S.C. § 3664(e). Any dispute as
to the propery amount of restitution shall be resolved by the court by a
preponderance of the evidence. Id. “The MVRA authorizes restitution to a victim
9
App. 22

20-40515.270

Case 4:17-cr-00193-MAC-KPJ Document 80 Filed 12/03/19 Page 10 of 22 PageID #: 526

‘directly and proximately harmed’ by a defendant’s offense of conviction. The
purpose of restitution under the MVRA is to compensate victims for losses, not to
punish defendants for ill-gotten gains. An award of restitution greater than a victim’s
actual loss exceeds the MVRA’s statutory maximum.” United States v. Sharma, 703
F.3d 318, 321 (5th Cir. 2012). “The general rule is that the statute does not authorize
a restitution order that exceeds the victim’s losses.” U.S. v. Chemical & Metal
Industries, Inc., 677 F.3d 750, 752 (5th Cir. 2012) (citing United States v. Norris,
217 F.3d 262, 271-72 (5th Cir. 2000)).
“[T]he purpose of restitution is not to provide a windfall for crime victims but
rather to ensure that victims, to the greatest extent possible, are made whole for their
losses.” United States v. Martin, 803 F.3d 581, 594-95 (11th Cir. 2015) (citing
United States v. Cavallo, 790 F.3d 1202, 1238 (11th Cir. 2015). “As one court
explained, ‘an order of restitution that exceeds the victim’s actual losess or damages
is an illegal sentence.” See Chemical & Metal, 677 F.3d at 752 (citing United States
v. Middlebrook, 553 F.3d 572, 579 (7th Cir. 2009). “To be considered a ‘victim’
under the MVRA, an entity must have been ‘directly and proximately harmed as a
result of the commission of the [defendant’s] offense.” Id; 18 U.S.C. § 3663A(a)(2).
“[E]every dollar must be supported by record evidence.” Sharma, 703 F.3d at 321.
“[T]he MVRA limits restitution to actual, out-of-pocket losses.” United States v.
Howard, 784 F.3d 745, 750-51 (10th Cir. 2015).
10
App. 23

20-40515.271

Case 4:17-cr-00193-MAC-KPJ Document 80 Filed 12/03/19 Page 11 of 22 PageID #: 527

V. Singh’s trial counsel was ineffective for failing to investigate and failing to
object to restitution
The PSR fails to provide an adequate accounting for the loss determinations
included for Guaranty Bank, Plains Capital Bank, and Independent Banker Bank.
More importantly, had trial counsel conducted the required independent
investigation into the facts surrounding these loan transactions, the losses suffered,
and agreements between the banks, successor banks, and Singh, counsel would have
learned that the restitution amounts are overstated. Trial counsel’s failure to
investigate and failure to object to the restitution was unreasonable. Singh was
prejudiced by trial counsel’s deficient performance as there is a reasonable
probability that but for trial counsel’s failures, he would have received a lesser
amount ordered for restitution. Likewise, the restitution, as ordered, violates that
MVRA as it provides a windfall to successor banks who were not harmed by Singh’s
conduct. Therefore, Singh respectfully requests that this Court vacate his sentence,
in part, and remand for a new sentencing proceeding as to restitution.
a. Counsel failed to investigate or properly object to restitution: Texas
Leadership Bank
Singh, through his company Royse City Hospitality, LLC, received loan funds
from Texas Leadership Bank and Independent Bankers Bank totaling $4,035,600 for
the construction of a hotel in Royse City, Texas. The funds were used for that
purpose and a hotel was built. Following an economic downturn, Royse City
11
App. 24

20-40515.272

Case 4:17-cr-00193-MAC-KPJ Document 80 Filed 12/03/19 Page 12 of 22 PageID #: 528

Hospitality, LLC and Singh defaulted on the loan. Singh does not dispute that
personal financial statements submitted during the loan application process
contained false statements as to his indebtedness. The PSR concluded that from the
$4,035,600 loan, Texas Leadership Bank and Independent Bankers Bank suffered
losses of $1,337,322.31 and $778,740 respectively. The PSR acknowledged that as
a result of civil litigation, Royse City Hospitality, LLC, agreed to pay Texas
Leadership Bank $300,000, and thus the loss amount owed to Texas Leadership
Bank was $1,037,322.31. PSR ¶ 13. Singh was ordered to pay Guaranty Bank
$1,037,322.31 and Independent Banker Bank $778,740 as a result of the $4,035,600
loan.
Had trial counsel investigated the underlying transaction and resulting civil
litigation, he would have realized the losses attributed to the $4,035,600 loan were
vastly overstated. Furthermore, he would have realized that Guaranty Bank, as a
successor bank who purchased Texas Leadership Bank in 2015, suffered no losses
whatsoever. Before Guaranty Bank purchased Texas Leadership Bank, Texas
Leadership Bank settled with Singh regarding the defaulted loan. At the request of
undersigned counsel, forensic accountant and certificate public accountant, Scott
Barnes, reviewed the records related to the Rockwall County litigation between
Royse City Hospitality and Texas Leadership Bank over the $4,035,600 loan. On
April 13, 2011, Texas Leadership Bank filed a “Release of Lien,” in conjunction
12
App. 25

20-40515.273

Case 4:17-cr-00193-MAC-KPJ Document 80 Filed 12/03/19 Page 13 of 22 PageID #: 529

with the sale of the Royse City Hotel. The Release noted that the hotel was sold, the
proceeds were paid to Texas Leadership Bank, and Texas Leadership Bank thereby
released Royse City Hospitality, LLC, and Singh from all claims, actions or damages.
See Exhibit A. 5 In 2015, Guaranty Bank acquired Texas Leadership Bank. See
Exhibit B. 6 Guaranty Bank, as a successor bank, suffered no loss from the prior loan
transaction between Texas Leadership Bank and Singh, which had been resolved
through a settlement and release of lien years prior to Guaranty’s acquisition.
b. Counsel failed to investigate or properly object to restitution: Southwest
Securities
Singh was also ordered to pay the purchaser of Southwest Securities, Plains
Capital Bank, restitution. This restitution order suffers similar infirmities. Singh’s
company SWHG Hospitality, received a 6.1 million dollar loan from Southwest
Securities. Singh’s company Allen Hospitality had a prior loan of 5.2 million with
Southwest Securities, for a total of approximately 11.3 million. Both loans were for
the construction of hotels. Southwest Securities subsequently sold these loans to BV
Capital as part of a loan package of approximately $100 million dollars. In so doing,
Southwest Securities assigned all of interests in the related loans to BV Capital. See

Exhibit A consists of the summary report of Forensic Accountant Scott Barnes and the documentation supporting
his conclusions including the release of lien and settlement agreement.
6
See https://www.businesswire.com/news/home/20150803005258/en/Guaranty-Bank-Trust-Completes-AcquisitionTexas-Leadership
5

13
App. 26

20-40515.274

Case 4:17-cr-00193-MAC-KPJ Document 80 Filed 12/03/19 Page 14 of 22 PageID #: 530

Exhibit C. 7 Singh avers that prior to the sale of the loan from Southwest to BV
Capital, the loans were not in default. The loan purchasers, BV Capital, subsequently
settled with Singh. See Exhibit D. In accordance with the settlement, Singh executed
warranty deeds for the hotel properties and BV Capital paid Singh a single cash
payment of $650,000.00.8 The agreement stated that BV Capital, who purchased the
Southwest Securities loan, “release[d] Debtors and Guarantor from all indebtedness
and claims relating to the Loan Agreements…” Id. Five years later, Plains Capital
Bank acquired Southwest Securities. See Exhibit E 9 ; Dkt. 40-1 (from the
government’s memorandum noting that Plains Capital Bought Southwest Securities
in 2015 after Southwest Securities had sold their loan to BV Capital). Thus, Singh
withdraws his alternative argument, included in his original petition, that assuming,
in arguendo, Plains Capital Bank was owed restitution for actual losses, there should
be a reduction of $650,000.00. Singh, however, maintains that for purposes of
restitution Plains Capital Bank did not suffer losses and trial counsel was ineffective
for failing to object to restitution and bring forth the evidence regarding BV Capital’s
settlement with Singh and the argument that Plains Capital Bank, as a successor bank

Exhibit C is letter Southwest Securities sent to SWHG Hospitality (Singh) in 2010 informing him that his loan had
been sold to BV Capital.
8
In his original petition for a writ of error coram nobis, counsel mistakenly asserted that Singh, as part of his
settlement with BV Capital, paid BV Capital $650,000. Rather, BV Capital took the deed to the hotel property, the
value of which exceeded the loan, and BV Capital paid Singh $650,000. Thereby, Singh fully satisfied the
outstanding loans.
9
See https://www.plainscapital.com/about/newsroom/plainscapital-bank-completes-conversion-of-formersouthwest-securities-fsb-branches/
7

14
App. 27

20-40515.275

Case 4:17-cr-00193-MAC-KPJ Document 80 Filed 12/03/19 Page 15 of 22 PageID #: 531

– who purchased Southwest Securities after Southwest Securities sold the loan to
BV Capital – suffered no losses.
Plains Capital Bank acquired Southwest Securities after Southwest Securities
sold its loans with Singh to BV Capital. There is nothing in the PSR to suggest that
Plains Capital suffered any loss yet Singh was ordered to pay $1,614,885.22 in
restitution based on the losses alleged by Southwest Securities in their sale of the
loan to BV Capital. Pursuant to the Mandatory Victims Restitution Act, at sentencing,
the government bears the burden of establishing the loss suffered by an alleged
victim by a preponderance of the evidence. 18 U.S.C. § 3664(e). To be considered a
“victim” an entity must have been directly and proximately harmed as a result of the
defendant’s offense. 18 U.S.C. § 3663A(a)(2); see United States v. Chemical &
Metal Industries, Inc., 677 F.3d 750, 752 (5th Cir. 2012). Trial counsel failed to
make any objection to Plains Capital Bank being considered a victim for purposes
of restitution. Plains Capital Bank is a third-party entity, not involved in the loan
transaction with Singh, which purchased Southwest Securities. To be owed
restitution, the government, at sentencing, had the burden of establishing that Plains
Capital suffered some actual out-of-pocket loss. United States v. Howard, 784 F.3d
745, 750-51 (10th Cir. 2015).
Even assuming, without conceding, that Southwest Securities lost
$1,614,885.22 on this loan, pursuant to their sale of the loan to BV Capital, it is not
15
App. 28

20-40515.276

Case 4:17-cr-00193-MAC-KPJ Document 80 Filed 12/03/19 Page 16 of 22 PageID #: 532

axiomatic that Plains Capital Bank as a subsequent purchaser of Southwest
Securities would be owed that amount. First, Southwest Securities assigned their
rights to the loan to BV Capital who subsequently settled the 11.3 million dollar loan
with Singh whereby BV Capital actually paid Singh. Section 3663(A)(a)(1) does not
authorize the sentencing court to order a defendant pay restitution to any person who
was not a victim of the offense of which the defendant was convicted. See also
United States v. Randle, 324 F.3d 550, 556 (7th Cir. 2003) (“both the amount of the
restitution award and the persons to whom such an award may be directed are limited
by the circumstances for which the defendant has been convicted”). “Restitution
normally tracks the recovery to which the victim would have been entitled in a civil
suit against the criminal…” United States v. Rand, 403 F.3d 489, 494 (7th Cir. 2005)
(internal quotations and citations omitted). Here, Plains Capital Bank would be
entitled to nothing in a civil suit against Singh. Plains Capital Bank was not the
lender and the lender sold the loan and assigned all of its associated rights to the debt
to BV Capital. BV Capital settled with Singh.
At sentencing, trial counsel withdrew any objection he had to the restitution
and the court simply accepted the amounts contained in the PSR. Neither Plains
Capital Bank nor Guaranty Bank were victims nor was it established that they
suffered any losses as a result of the Singh loan transactions, both of which were
assigned or settled before the successor banks purchased the lendor banks. A
16
App. 29

20-40515.277

Case 4:17-cr-00193-MAC-KPJ Document 80 Filed 12/03/19 Page 17 of 22 PageID #: 533

restitution award to an entity in excess of their actual out-of-pocket losses in an
illegal sentence, Plains Capital Bank and Guaranty Bank suffered no out-of-pocket
losses as a result of Singh’s conduct. See U.S. v. Chemical & Metal Industries, Inc.,
677 F.3d at 752.
c. The impact of counsel’s failure on restitution
Trial counsel’s failure to investigate the transactions underlying the loans,
settlement agreements, and successor bank purchases prejudiced Singh. Had counsel
investigated these matters, he could have properly objected that the restitution
ordered erroneously awarded funds to non-victim banks for amounts that were not
properly accounted for in violation of the MVRA. By failing to investigate and
properly object, Singh was ordered to pay an excessive amount in restitution.
The Fifth Circuit has noted that, “if… restitution is inherently a compensatory
measure, then civil settlements should prohibit restitution awards, as the victim
would already have been compensated to its satisfaction.” United States v.
Sheinbaum, 136 F.3d 443, 447 (5th Cir. 1998) (concluding that the MVRA’s
predecessor, the VWPA, was primarily penal nature and that district courts thus have
the discretion to impose restitution orders in spite of civil settlements) (citing Bonnie
Arnett Von Roeder, Note, “The Right to a Jury Trial to Determine Restitution Under
the Victim and Witness Protection Act of 1982,” 63 Tex. L. Rev. 671, 677-79
(1984)); see also United States v. Bruchey, 810 F.2d 456, 460 (4th Cir. 1987)
17
App. 30

20-40515.278

Case 4:17-cr-00193-MAC-KPJ Document 80 Filed 12/03/19 Page 18 of 22 PageID #: 534

(suggesting that a voluntarily executed agreement between a defendant and his
victim would render a restitution order unnecessary). The MVRA is undisputedly
compensatory in, not penal, in nature. See Sharma, 703 F.3d at 322. “The defendant
waives any offset claim if he fails to present evidence in the district court of the
amount of offset.” Sheinbaum, 136 F.3d at 450.
Here, the true victim(s) of each loan had already been compensated to their
satisfaction for the default in the loan through settlement. Texas Leadership Bank
settled their debt with Singh and ultimately, the purchaser bank Guaranty Bank, was
not harmed by Singh’s conduct. Southwest Securities sold their loan to BV Capital,
who settled with Singh, and Plains Capital purchased Southwest Securities without
suffering any losses related to a loan, which had already been sold. While the district
court reduced the amount of loss and restitution to Guaranty Bank by the $300,000
pay out, trial counsel failed to produced or present evidence regarding the “Release
of Lien,” which specifically states:
Holder of Note and Lien acknowledges payment in full of the Note and
releases the Property from the lien and from all liens held by Holder of
Note and Lien, without regard to how they were created or evidence
Each party represented herein and, except where clearly not applicable,
each signatory hereto agrees to release all other parties and signatories
(except where clearly not applicable) and all agents and/assigns of the
Receiver from any and all claims, causes of action, chose in action, or
damages for anything whatsoever which are in any way related to the
above-entitled cause.

18
App. 31

20-40515.279

Case 4:17-cr-00193-MAC-KPJ Document 80 Filed 12/03/19 Page 19 of 22 PageID #: 535

Exhibit A.
Trial counsel could have presented this available evidence as well as
testimony from a forensic accountant or CPA who would have concluded that, as a
result of this agreement with Texas Leadership Bank, neither Singh nor Royse City
Hospitality, LLC, owed any additional amounts to Texas Leadership Bank.
Furthermore, trial counsel failed to object to the successor bank, Guaranty Bank,
receiving restitution when they suffered no actual losses.
Likewise, trial counsel failed to investigate the Southwest Securities loan,
which had been sold to a third-party, BV Capital, and then settled between Singh
and BV Capital. Ultimately, Plains Capital Bank could have suffered no losses as a
result of Singh’s conduct in its acquisition of Southwest Securities. Trial counsel
should have again objected to restitution being ordered to parties who suffered no
losses.
Here, there is no evidence to suggest that either successor bank, Guaranty or
Plains Capital Bank, suffered any loss as a result of Singh’s conduct. While
successor lender’s may be victims, there would have to be proof that they suffered
some loss. See United States v. Yeung, 672 F.3d 594, 596 (9th Cir. 2012) (finding
successor lender was a victim because they “purchased the loan without an
awareness of its true value to the [defendant’s] fraud, the district court could
reasonably conclude that [defendant’s] fraudulent conduct proximately harmed [the
19
App. 32

20-40515.280

Case 4:17-cr-00193-MAC-KPJ Document 80 Filed 12/03/19 Page 20 of 22 PageID #: 536

successor lender]”); see also United States v. Martin, 803 F.3d 581 (11th Cir. 2015)
(finding successor lender was a “victim” under MVRA but that district court
improperly calculated restitution where there was no evidence of purchase price).
Both Guaranty Bank and Plains Capital Bank, were successor banks who purchased
the lending banks after those lending institutions had either settled the debt and
released Singh of further obligation or sold the loan to a knowing third-party who
then settled the debt and released Singh of further obligation. At a minimum, the
losses suffered, if any, by successor banks in their acquisition of the lending
institutions is unknown. There is no evidence on the record before this Court that
these banks suffered any such, actual, out-of-pocket, loss in purchasing the lending
banks.
Trial counsel failed to object to restitution being ordered to non-victims,
which exceeds the scope of the MVRA. The remedy is vacating Singh’s sentence,
in part, and remanding for new restitution proceedings. See Mischler, 787 F.2d 240
(vacating sentence in part on petition for coram nobis for restitution order where
district court did not rely on accurate information and did not determine the amount
of damages with certainty noting that restitution is limited by actual loss).
CONCLUSION
Singh’s trial counsel rendered ineffective assistance of counsel at the
sentencing phase of Singh’s proceeding by failing to investigate and object to the
20
App. 33

20-40515.281

Case 4:17-cr-00193-MAC-KPJ Document 80 Filed 12/03/19 Page 21 of 22 PageID #: 537

restitution. Had counsel investigated the loan transactions, the underlying settlement
agreement and releases and subsequent sales of the loans and/or lending institution
to successor banks, he would have learned that the banks released Singh from
liability or further damages and that successor banks suffered no losses. Counsel
should have used this available information to challenge the restitution ordered. Trial
counsel’s failure to prejudiced Singh and this Court should grant this writ to correct
the error in restitution.
Therefore, Singh respectfully requests his petition for a writ of coram nobis
be granted and that the matter be reset for sentencing as to restitution. In the
alternative, Singh respectfully requests that this Court order an evidentiary hearing
on the matter.
Respectfully Submitted,
/s/ Bruce Anton
Bruce Anton
SBTN: 01274700

UDASHEN & ANTON
2311 Cedar Springs Road, Suite 250
Dallas, Texas 75201
(214) 468-8100
(214) 468-8104 fax
ba@udashenanton.com
Attorney for Defendant-Petitioner

21
App. 34

20-40515.282

Case 4:17-cr-00193-MAC-KPJ Document 80 Filed 12/03/19 Page 22 of 22 PageID #: 538

CERTIFICATE OF SERVICE
The undersigned hereby certifies that a true and correct copy of the
foregoing petition and memorandum were upon on all counsel of record by filing
of the document with the court’s electronic filing system.
/s/ Bruce Anton
Bruce Anton

CERTIFICATE OF CONFERENCE
The undersigned certifies that he has conferred with Tom Gibson, Assistant
United States Attorney and the government is opposed to the granting of this petition.

/s/ Bruce Anton
Bruce Anton

22
App. 35

20-40515.283

Case 4:17-cr-00193-MAC-KPJ Document 80-1 Filed 12/03/19 Page 1 of 8 PageID #: 539

EXHIBIT A

App. 36

20-40515.284

Case 4:17-cr-00193-MAC-KPJ Document 80-1 Filed 12/03/19 Page 2 of 8 PageID #: 540

Barnes & Company

February 4, 2019

Mr. Bruce E. Anton
Udashen Anton
2311 Cedar Springs
Suite 250
Dallas, Texas 75201
Re: United States of America v. Manpreet Singh Cause No. 4:17-CR-193
Dear Mr. Anton:
The purpose of this letter is to summarize our findings in the above matter based on our review of
the documents produced to us to date. On April 13, 2011, Texas Leadership Bank filed a Release
of Lien in conjunction with the sale of that certain commercial property described in the March 16,
2011 Agreement for Sale and Purchase of Property, as amended, (the “Sale Agreement”) between
Kyle Green, court-appointed receiver, and Rockwall Hospitality, Ltd. Under the Sale Agreement the
commercial property was sold for $1,870,700 and $1,784,280.49 of these proceeds were paid to
Texas Leadership Bank as set forth in the April 13, 2011 Seller’s Statement identifying the sources
and uses of funds from the sale. The Release of Lien defined Texas Leadership Bank as the “Holder
of Note and Lien.” Within the Release of Lien, the document specifically stated the following:
“Holder of Note and Lien acknowledges payment in full of the Note and
releases the Property from the lien and from all liens held by Holder of Note and
Lien, without regard to how they were created or evidence.”
[Emphasis Added]
The “Borrower” defined within the Release of Lien was Royse City Hospitality, LLC, a Texas limited
liability company. The “Note” within the Release of Lien was defined as that certain March 28, 2008
note in the original principal amount of $4,035,600.00.

Barnes & Company

100 Crescent Court, Suite 1725

Dallas, Texas 75201

(214) 305-2681

www.barnesco.com

App. 37

20-40515.285

Case 4:17-cr-00193-MAC-KPJ Document 80-1 Filed 12/03/19 Page 3 of 8 PageID #: 541
Page 2
Mr. Bruce E. Anton
February 4, 2019

On or about August 5, 2013, Texas Leadership Bank (“TLB”) initiated certain litigation styled Texas
Leadership Bank v. Royse City Hospitality, LLC, Manpreet Singh and Pal Dhaliwal Cause No. 1-13847 in the District Court 439th Judicial District Rockwall County, Texas. The stated purpose of this
litigation was to seek payment of the Note deficiency realized by TLB. It is our understanding that in
or about November 2014, Texas Leadership Bank amended and/or modified the original Release of
Lien filed on April 13, 2011 to remove its acknowledgement that the Note was paid in full.
On January 28, 2015, TLB and the defendants in the litigation entered into a Mediation Settlement
Agreement (the “Settlement”). Section 2(a) to that Settlement set forth the following:
“. . . An agreed judgment shall be entered by the parties for $1 Million payable by
Defendants jointly and severally to Plaintiff. Release of said judgment upon
payment of $300,000.00 in certified funds for plaintiff at TLB facility by March 19,
2015 at noon local time.”
[Emphasis Added]
Section 2(b) to the Settlement agreement contained the mutual releases among the parties setting
forth specifically:
“Each party represented herein and, except where clearly not applicable, each
signatory hereto agrees to release all other parties and signatories (except
where clearly not applicable) and all agents and/assigns of the Receiver from any
and all claims, causes of action, chose in action, or damages for any thing
whatsoever which are in any way related to the above-entitled cause.”
[Emphasis Added]
Under the Settlement dated January 28, 2015, TLB accepted $300,000 to release Royse City
Hospitality, LLC and Manpreet Singh from all claims, actions or damages for any thing (sic)
whatsoever. Accordingly, for payment of $300,000, TLB agreed to write off any remaining unpaid
indebtedness outstanding related to the original note dated March 28, 2008. As such, no additional
amounts would be owed and or claimable against Royse City Hospitality, LLC or Manpreet Singh,
individually.
From a damage’s perspective, the January 25, 2015 settlement would theoretically negate any
further damages related to this transaction. We are available to discuss at your convenience.
Kindest regards,

Scott A. Barnes, CPA, CFF, CGMA
Chief Executive Officer

App. 38

Barnes & Company
20-40515.286

Case 4:17-cr-00193-MAC-KPJ Document 80-1 Filed 12/03/19 Page 4 of 8 PageID #: 542

Releas e of Lien
Date :

April 1 3, 2011

Note
Date:

March 28, 2 00 8

Original principal amount:
Borrower :
Lender:

$4,035 , 600.00

ROYSE CITY HOS PITALITY , LLC, a Texa s limited liability company
TEXAS LEADERSHIP B~.NK

Holder of Note and Li en:

TEXAS LEADERSH I P BANK

Holder's Mailing Addres s:

Note and Lien Are Described in the Following Documents :

Deed of Trus t , Security Agreement and Financ ing Stateme nt executed by ROYSE CITY
HOS PITP.LITY, LLC, a Texas limited liabili t y compan y, to STANLEY K . PINKHAM,
Trus tee{s ), securing TEXAS LEADERSHIP BANK in the payment of one note i n the
principal amount of $ 4,03 5,6 00.00, and oth e r i ndebtedness and performance as
therein provided, which Deed of Trust is dated March 28, 2 008, filed of record on
April 1 1, 2008 1 and recorded in Volume 5425, Page 188, Real Estate Records of
Rockwall County , Texas.
Being fu rth e r secured by Assignment of Rent , Income, and Rece ip ts, dated March
2 8, 2008, fi l ed April 11, 2008, recorded in Volume 5425, Page 201, Real Estate
Records, Rockwall County , Texas.
Property (including any improvements):

Being Lot 1, Blo ck A o f FIRST BAPTI ST CHURCH ADDI TION, RE PL.ll..T LOT "B" AND A PART
LOT " C' 1 ' an Addition to t he City of Royse Ci ty, Rockwall County, Texas,
according to the Plat t hereof recorded in Cabinet G , Slide 24 1 , Plat Records,
Rock wall County , Texas .
OF

Holder of No te and Lien i s
described above.

the owner and holder of the No te and Lien

Holder of Note and Lien acknowledges payme nt in ful l of the Note and
releases the Property from the Lien and from all liens h e ld by Holder of Note and
L ien, without regard to how they were created o r evidenced.
When the context requires, singular nouns and pronouns include the plural .

TEXAS LEADERSHIP BANK

30974 - RWll
Release of Lien(2) - Page 1 of 2

App. 39

20-40515.287

Case 4:17-cr-00193-MAC-KPJ Document 80-1 Filed 12/03/19 Page 5 of 8 PageID #: 543

COUNTY OF

'X·:::,:r·(~wc:-..i,.\\

-=s,~<~

Before me, {Name of Notary}
<:::~~>,~\.-1 S
on
this day personally appeared'~,-:-,.r~"-'-A J::£_£, \[, ~"\':,,.\,c.,_,y,, ~,;sf:-,,i\-1 ,.:.{::,_ ~, <.:._'c_ C I
of
TEXAS LEADERSHIP BANK, a
'
corporation, kno wn to me (or
proved to me on the oath of _
·-- - ) , or through
_::_1_-.:_f::::_
[description of ident.i ty card or other document/ to be the
person whose name is subscribed to the foregoing instrument a nd acknowledged to
me that h e executed the s ame for the purposes and cons ide ration there in
expressed, in the capa city therein stated and as the act and deed of s aid
corpor ation .

b\.-

Given under my hand and seal of office this

\.'<
_\_.U_\_,,;_
··-_)._--

day of APRIL, 2011.

AFTER RECORDING RETURN TO ;

AMERICAN TITLE COMPANY OF EAST TEXAS
3090 Ridge Road
Rockwall , Texas
750 3 2

30974-RWll

Release of Lien(2) - Page 2 of 2

App. 40

20-40515.288

Case 4:17-cr-00193-MAC-KPJ Document 80-1 Filed 12/03/19 Page 6 of 8 PageID #: 544

NO. 1-10-576
TEXAS LEADERSHIP BANK
Plaintiff,

*
*

Vs.

*

ROYSE CITY HOSPITALITY, LLC
And MANPREET SINGH, individ~ally
And PAL DHALIWAL, individually
Defendants

IN THE DISTRICT COURT

*

*

382nd JUDICIAL DISTRICT

*
*
*

ROCKWALLCOUNTY,TEXAS

*

MEDIATION SETILEMENT AGREEMENT

1.
The parties hereto (plaintiff-counter defendant and defendants-counter
plaintiffs) agree to settle all claims, counterclaims and controversies between them,
asserted or assertable in this matter, and agree and intend to be bound by the following
terms, pursuant to Section 154.071, of the Texas Civil Practice and Remedies Code.
Definitions:
(a)
"Plaintiff' shall mean Texas Leadership Bank, in all capacities in all
litigations. Doyle E. Cooper shall be the spokesperson and signatory for Plaintiff.
(b)
"Defendant" shall mean Royse City Hospitality, LLC, Manpreet Singh
and Pal Dhaliwal, each in all capacities in all litigations. Manpreet Singh and Pal Dhaliwal
shall be the spokespersons and signatories for Defendants.
(c)
"Receiver" shall mean Prism Hotel Group, in all capacities in all
litigations. It shall also include Hunter Hotels, Kyle Green, including all beneficiaries,
assigns, agents, etc.
2.

The above-styled and numbered cause shall be resolved as follows:

(a)
An agreed judgment shall be entered by the parties for $1 Million
payable by Defendants jointly and severally to Plaintiff. Release of said judgment upon
payment of $300,000.00 in certified funds to plaintiff at TLB facility by March 19, 2015 at
noon Local time.
(b)
Each party represented herein and, except where clearly not
applicable, each signatory hereto agrees to release all other parties and signatories
(except where clearly not applicable) and all agents and/assigns of the Receiver from any
and all claims, causes of action. choses in action, or damages for any thing whatsoever
which are in any way related to the above-entitled cause. : \

,.,.._.,,,.,,.,,,,,,_,..,°""""'·'""""'""'a.....,,o,,,,.,.

~

RCH. by PD

App. 41

.\

r '

. ,

-~ . ~ , ,-; ~MS

PD ~ : •

-14;

20-40515.289

Case 4:17-cr-00193-MAC-KPJ Document 80-1 Filed 12/03/19 Page 7 of 8 PageID #: 545

3.
The parties and their attorneys and agents agree that all the terms of this
Settlement Agreement shall be confidential and shall not be disclosed to any persons or
entities as of the date of this Settlement Agreement forward.
4.

Each signatory, hereto warrants and represents:

(a)

He or she has authority to bind the parties for whom that signatory acts.

{b)

A facsimile signature is sufficient and acceptable for all purposes.

5.

Further Disputes Regarding this Agreement
(a) If one or more disputes arise with regard to the interpretation and/or
performance of this Settlement Agreement or any of its provisions, the Parties agree to
attempt to resolve same by telephone conference.
(b) If the Parties cannot resolve their differences by telephone conference,
then each agrees to schedule a two-hour mediation with a Mediator (8:00 a.m. to 10:00
a.m.) within thirty (30) days to resolve the dispute; however, any party can mediate by
representative at the mediation.
{c) If a Party refuses to mediate, then that Party may not recover attorneys
fees or costs in any litigation brought to construe or enforce this Settlement Agreement.
Otherwise, if mediation is unsuccessful, then the prevailing Party or Parties shall be
entitled to recover reasonable attorney fees and expenses.
6.

Other terms of this Settlement Agreement:

a.
The following documents shall be drafted by Plaintiff's attorney who shall
submit them to Defendant's attorney within 10 days. Defendant shall consider, object,
discuss and then execute and return to Plaintiff the acceptable documents within the
following 10 days. Judgment
b.
The following documents shall be drafted by Defendant's attorney who shall
submit them to Plaintiff's attorney within 10 days. Plaintiff shall consider, object, discuss
and then execute and return to Defendant the acceptable documents within the following
1O days. Mutual release including a covenant not to sue receiver or his agents. Release
of judgment after payment. Final closing order on the receivership.
7.
This Settlement Agreement is made in Rockwall County and performable in
Rockwall County, Texas and shall be construed in accordance with the laws of the State of
Texas.
8.
Each party acknowledges that they have conferred with such counsel of
their choice regarding the advisability of entering this agreement liar
to signin~ it.

SIGNED this 28'" day of January, 2015.
Mediation Settlemem Agreement Couse No. 1-10-576 38?" Disl Ct. Rod."'011 Ca, Texus

Cf,

/ D~ . \

iV?tW-

V

NI>

~~~/

~

\

, _\ 1 •

~~

_;;,byPD~~l:•·Dr:C

fr!:
iMfil~
. ~'/4- /~
{_ ~bn---·
V

I

I

\.

'

.'·,,
d :Daae

App. 42

/CJ 1

_

/).O I ' ,

,-.

~

-2 ofJ

(l~~

,_;f

~
fr,~.
20-40515.290

IQ
!VUJ
./UUJ
.

Case4
:17
-c
r
-00193
-MAC
-KPJ Documen
t80
-1 F
i
led12
/03
/19 Page8o
f8Page
ID#
: 546

R
o
y
s
eC
i
t
yH
o
sp
i
t
a
l
i
ty
,U
.C

B
y
.
\
~
_

~~

PAL"'"'f;HAUWAL,amember
TCX
I
ISL
ead
cm
i
ipBank

App
.43

20
-40515
.291

Case 4:17-cr-00193-MAC-KPJ Document 80-2 Filed 12/03/19 Page 1 of 3 PageID #: 547

EXHIBIT B

App. 44

20-40515.292

Case 4:17-cr-00193-MAC-KPJ Document 80-2 Filed 12/03/19 Page 2 of 3 PageID #: 548

Guaranty Bank & Trust Completes Acquisition of Texas
Leadership Bank
August 03, 2015 09:00 AM Eastern Daylight Time
MOUNT PLEASANT, Texas--(BUSINESS WIRE)--Guaranty Bancshares, Inc., the holding company of Guaranty
Bank & Trust (Guaranty), announced today the completion of its acquisition of Texas Leadership Bank of Royce
City. Legal conversion of Texas Leadership took place on March 27. The bank operated as a separate subsidiary of
the holding company until July 31, when the operational conversion occurred and the bank was merged with and
into Guaranty Bank & Trust.
The completion of this merger has increased Guaranty Bank & Trust’s total assets to over $1.5 billion. Texas
Leadership Bank’s employees are now working as Guaranty Bank & Trust employees at the Royce City location,
121 W. Interstate Highway 30.
Doyle Cooper, President of the Royce City market, said, “We are pleased with the opportunities Guaranty is
providing our customers and staff. The partnership that has been formed will bring improved banking products and
services our customers will appreciate.”
Guaranty is further expanding its presence in fast-growing Rockwall County. A new bank location will open after
renovations are completed at 2255 Ridge Road in Rockwall. By the third quarter of 2015, Guaranty will operate a
total of 24 bank locations across 17 Texas markets, including four in the Dallas/Fort Worth market.
Ty Abston, Chairman of the Board and CEO of Guaranty, said, “With two locations in Dallas County and two in
Rockwall County, we continue building our banking franchise in the D/FW market. These moves support our
strategic plan to further expand into markets that will lead to future growth opportunities for Guaranty.”
About Guaranty Bancshares, Inc.
Guaranty Bancshares, Inc. is the holding company of Guaranty Bank & Trust, with over $1.5 billion in assets.
Guaranty is one of the oldest and most respected regional community banks in Texas, with a full array of
commercial and consumer banking products and wealth management services. Guaranty’s history of strength,
App. 45

20-40515.293

stability, and growth for more than 100 years provides its customers and shareholders with a proven track record
Case
4:17-cr-00193-MAC-KPJ
Document
80-2
Filed
12/03/19
3 of 3 PageID
#: 549
of success.
Additional
information about Guaranty
Bank
& Trust
and
its full linePage
of products
and services
can be
found at www.gnty.com.

Contacts
Guaranty Bancshares, Inc.
Cappy Payne, 1-888-572-9881
Senior Executive Vice President & CFO
Investors@gnty.com

App. 46

20-40515.294

Case 4:17-cr-00193-MAC-KPJ Document 80-3 Filed 12/03/19 Page 1 of 3 PageID #: 550

EXHIBIT C

App. 47

20-40515.295

Case 4:17-cr-00193-MAC-KPJ Document 80-3 Filed 12/03/19 Page 2 of 3 PageID #: 551

~ SOUTHWEST
~ SECURITIES,
FSB
Member ofSVVS
Group

12/10/2010

SWHG Hospitality LTD
2401 President George Bush Turnpike
Plano TX 75074
We appreciate your business at Southwest Securities, FSB and we hope you will look to us for your future banking needs.
This letter is to inform you that your loan has been sold.

Please read the enclosed customer disclosure carefully.
In it you will find information about the purchaser of your loan and details regarding where you should mail all future
loan payments. If you have any questions about your payments, please call our customer service line at (800) 861-3863
ext 4836.
You are being advised to make your next scheduled loan payment after the effective transfer date of the Joan starting
12/10/2010 to your new loan servicer. Also, you should expect to receive further detailed instructions from your n~w
servicer on where to direct all future loan payments along with additional infonnation on how to contact them directly.
Once again, we thank you for allowing Southwest Securities, FSB to serve your financial needs and we hope you will
look to us again in t fu re for your banking needs.

Sincerely,
· Bobby Gardner
469~718-463 5

App. 48

20-40515.296

Case 4:17-cr-00193-MAC-KPJ Document 80-3 Filed 12/03/19 Page 3 of 3 PageID #: 552

Notice of Assignment, Sale, or Transfer of Servicing Rights
Loan #: 4001921
Lender: Southwest Securities, FSB
Borrower:
SWHG Hospitality LTD
Property:
2401 President George Busll Turnpike Plano TX 75074
You are hereby notified that your mortgage loan is being sold, including the servicing rights to collect payments from you from

Southwest Securities, FSB to BV Capital Funding effective 12/10/2010. Your new servicing contact will be BV Capital Funding

The assignment, sale or transfer of the servicing of the mortgage loan does not affect any Joan agreement terms or conditions of the
mortgage instrument, other than the terms directly related to the servicing of your loan.
Your present servicer is Soutbwest Securities, FSB. If you have any questions relating to the transfer of servicing from your present
servicer call toll-free (800) 861-3863 during business hours between 9:00 a.m.-4:00p.m.; Monday through Friday (excluding
weekends and Federal Holidays). You can also write to us at Southwest Securities, FSB, Loan Operations, and P. 0 . Box
130657, Dallas, TX 75313-0657.

Your new servicer will be BV Capital Funding their business address is 901 Pier View Drive Suite #204 Idaho Falls, Idaho If
you have any questions relating to the sale or transfer of your loan you may call your new servicer toll-free at 1(208) 523-3794
between the hours 9am and 5 pm MoW1tain Time Monday through Friday (excluding weekends and Federal Holidays).

The date your present servicer will discontinue accepting payments from you is 12/10/2010>:
The date your new servicer will begin accepting payments from you is 12/10/2010
Please send all payments due on or after the ~effective date to your new servicer.

You should also be aware of the following information in accordance with Section 6 of the Real Estate Settlement Procedures Act
(RESPA) (12 U:S.C. 2605):
During the 60-day period following the effective date of the sale and transfer of the loan, a loan payment received by your old servicer
before its scheduled due date may not be treated by the new loan servicer as late, and a late fee may not be assessed.
Section 6 of RESP A (12 lJ .S.C. 2605) gives you certain consumer rights. If you send a "qualified written request" to your loan
servicer concerning the servicing of your loan, your servicer must provide you with a written acknowledgement within 20 business
days of receipt your request. A "qualified written request" is a written correspondence, other than notice on a payment coupon or
other payment medium supplied by the servicer, which includes your name and account number, and your reasons for the request. If
you want to send a "qualified written request" regarding the servicing of your loan, it must be sent to this address: BV Capital
Funding 901 Pier View Drive Suite #204 Idaho Fal1s, ID 83402 .
Not later than 60 business days after receiving your request, your servicer must make any appropriate corrections to your account, and
must provide you with a '-'tTitten clarification regarding any dispute. During this 60 business day period, your servicer may not
provide information to a consumer reporting agency concerning any overdue payment related to such period or qualified written
request. However, this does not prevent the servicer from initiating foreclosure if proper grounds exist under the Joan agreement.
A Business Day is a day on which the offices of the lender are open to the public for carrying on substantially all of its' business
functions.
Section 6 of RESP A also provides for damages and costs for damages and costs for individuals or classes of individuals in
circumstances where servicers are shown to have violated the requirements of that Section. You should seek legal advice if you
believe your rights have been violated.

App. 49

20-40515.297

Case 4:17-cr-00193-MAC-KPJ Document 80-4 Filed 12/03/19 Page 1 of 26 PageID #: 553

EXHIBIT D

App. 50

20-40515.298

Case 4:17-cr-00193-MAC-KPJ Document 80-4 Filed 12/03/19 Page 2 of 26 PageID #: 554

STIPULATION. SETILEMENT. AND RELEASE AGREEMENT
This Stipulation, Settlement, and Release Agreement (the "Agreement") is dated as of
_ _ ___, 2011 (the "Execution Date") .This Agreement is made by and among SWHG
Hospitality, Ltd., Allen Hospitality, LLC (collectively the ''Debtors") and Manpreet Singh
("Guarantor'') on the one hand, and BV Capital Funding, LLC ("BVCF") on the other hand (all
parties referenced above, collectively, the "Settling Parties"). This Agreement is intended by
the Settling Parties to fully, finally and forever satisfy, resolve, discharge and settle any claims
held between the parties that are related to the Cash Collateral Motion (defined below), Lift Stay
Motion (defined below), the Bankruptcy (defined below), the Loan Agreements (defined below),
the Notes (defined below), and the Loan Documents (defined below), upon and subject to the
terms and conditions hereof.

RECITALS
A.
WHEREAS on May 2, 2011 (the "Petition Date''), Debtors each caused to be
-filed a voluntary petition under chapter 11 of title 11 of the United States Code (collectively the
''Bankruptcy Proceedings"), jointly administered under case ntunber 11-41438-BTR-11, in the
United States Bankruptcy Court for the Eastern District of Texas (the "Bankruptcy Court'').

B.
WHEREAS Debtors consist of two separate "single asset real-estate" entities as
defined by Bankruptcy Code section 101(51B).
C.
WHEREAS Debtor Allen Hospitality, LLC is a Texas limited liability company
formed for the purpose of owning and operating a hotel property - the LaQuinta Inn & Suites,
Allen at The Village (the "Allen Property"), located at 1220 North Central Expressway, Allen,
Texas 75013.
D.
WHEREAS Debtor SWHG Hospitality, Ltd. is a Texas limited partnership
formed for the purpose of owning and operating a hotel property - the Candlewood Suites
Dallas-Plano-East Richardson hotel (the .. Plano Property"), located at 2401 E. George Bush
Turnpike, Plano, Texas 75074. The Allen Property and the Plano Property, including all
improvements thereto, are collectively referred to herein as the ..Properties," and are more fully
described in Exhibit A-1 attached to this Agreement

E.
WHEREAS in connection with the purchase of the Properties, Debtors each
executed Construction Loan Agreements (collectively, as amended, modified, and supplemented,
the "Loan Agreements'') and related Real Estate Lien Notes (collectively, as amended,
modified, and supplemented, the "~'') with and in favor of Southwest Securities, FSB.
Each of Debtors also entered into a separate related Deed of Trust, Security Agreement and
Assignment of Rents and Leases to secure and enforce the payment of the Notes (collectively, as
amended, modified) and supplemented, the "Loan Documents''). Pursuant to the terms of the
Loan Documents, Debtors granted first priority liens o~ among other fuings, the Properties, and
all personal property used by Debtors in the operation of the Properties (the "Business Personal
Property"). A true and co1Tect list of the Business Personal Property is attached hereto as
Exhibit A-2. The Properties and the Business Personal Property are collectively referred to
herein as the "Assets''.

WEST1224'11480.1

App. 51

20-40515.299

Case 4:17-cr-00193-MAC-KPJ Document 80-4 Filed 12/03/19 Page 3 of 26 PageID #: 555

Singh.

F.

WHEREAS each of the Notes was guaranteed personally by Guarantor, Manpreet

G.

WHEREAS on or about December 10, 2010, Southwest Securities, FSB executed
two Allonges, assigning and endorsing each of the Notes to BVCF. Concurrently, Southwest
Securities, FSB executed Assignments of Deed of Trust, Security Agreement and Assignments
of Rents and Leases for each of the Properties wherein Southwest Securities, FSB assigned its
interests in the related Loan Documents to BVCF.
H.
WHEREAS BVCF has all rights originally held by Southwest Securities, FSB
created by the Loan Agreements, Notes, and Loan Docuinents as amended by the Allonges.
I.
WHEREAS in or around February 2011, Debtors each executed a Forbearance
Agreement, wherein Debtors acknowledged that they were each in default under the Notes and
Loan Agreements. Pursuant to the terms of the Loan Agreement, Note and Loan Documents,
BVCF accele.i:ated the repayment of the Notes, which was also acknowledged by Debtors in each
oftbe Forbearance Agreements.

J.
WHEREAS as of the Petition Date, BVCF alleges that the balance on the Note
related to the Allen Property was $5,285,906.13, and the balance on the Note relating to the

SWHG Property was $6,087,371.89.

K.
WHEREAS on JlUle 6, 2011, BVCF filed a Motion for Relief from the Automatic
Stay in the Bankruptcy (the "Motion to Lift Stay") and the Limited Response in Opposition to
Debtors' Motion for Use of Cash Collateral (as amended, the ••cash Collateral Objection',).
L\VHEREAS the Settling Parties have agreed to resolve their differences and
disputes and release their claims against each other upon the terms and conditions set forth
herein.
M.
WHEREAS pursuant to such settlement among the Settling Parties, and subject to
the terms set forth more fully below, Debtors and BVCF will move to dismiss the Bankruptcy
Proceedings.
N.

WHEREAS upon dismissal of the Bankruptcy Proceedings, Debtors will provide

BVCF with valid, executed: (i) Special Warranty Deeds in lieu of foreclosure (collectively the
"Special Warranty Deeds") transferring the Properties to BVCF; and (ii) Bills of Sale
(collectively the "Bills of Sale") transferring the Business Personal Property to BVCF, as
required by the provisions of this Agreement.

0.
WHEREAS the Settling Parties have agreed that, in return for the Special
Warranty Deeds, the Bills of Sale, and the dismissal of the Bankruptcy Proceedings, as set forth
below, BVCF will (i) withdraw the Motion to Lift Stay and the Cash Collateral Objection, (ii)
pursuant to the terms hereof, release Debtors and Guarantor from all indebtedness and claims
relating to the Loan Agreements, Notes, and Loan Docwnents as amended by the Allonges, and
(iii) pay Debtors the amount set forth in this Agreement (the "Cash Payment'').

P.

WEST\224711480.1

WHEREAS Debtors acknowledge that the fair market value of the property
2

App. 52

20-40515.300

Case 4:17-cr-00193-MAC-KPJ Document 80-4 Filed 12/03/19 Page 4 of 26 PageID #: 556

secured as collateral for payment the Notes does not exceed the total outstanding principal,
accrued interest and other amounts due and owing pursuant to the Notes and Loan Agreements
as of the Effective Date.
NOW, THEREFORE, in consideration of the mutual covenants and agreements set
forth herein, the receipt and sufficiency of which are hereby acknowledged, the Settling Parties

hereby incorporate the foregoing recitals, acknowledgments and agreements of the Settling
Parties and agree as follows:
Section 1.
DISMISSAL OF BANKRUPTCY PROCEEDINGS. In order to implement the
terms of this Agreement the Settling Parties agree to file a Joint Agreed Motion to Dismiss
Bankruptcy Proceedings (with negative notice language) in the form substantially similar the
attached Exhibit B (the "Dismissal Motion"). In the event that the Bankruptcy Court enters an
order denying the Dismissal Motion on or before September 19, 2011 or fails to enter an order
approving the Dismissal Motion on or before September 30, 2011, then Debtors agree to cause
the Joint Plan of Reorganization currently filed in the Bankruptcy Proceedings to be amended to
implement the terms of this Agreement. Debtors further covenant and agree to pursue

confirmation of such amended plan with all diligence.

Section 2.

THE PROPERTY TRANSFER

2.1
Cash Payment. Within one (1) business day following the Effective Date
(defined below) BVCF shall make a single Cash Payment to Debtors of six-hundred twenty-five
thousand dollars ($625,000). Debtors and BVCF agree that the Cash Payment shall be delivered

to Debtors in the form of a cashier's check or wire transfer. If BVCF fails to deliver the Cash
Payment to Debtors on or before the date specified in this paragraph, Debtors and Guarantor
shall have the right to terminate this Agreement in their soie and absolute discretion.

2.2

Debtors' Assets.

(a)
Special Warranty Deeds. Within one (1) business day following the
Effective Date (defmed below) and contemporaneously with the receipt of the Cash
Payment, Debtors will provide BVCF with the valid, executed Special Warranty Deeds
transferring the Properties "as is, where is" to BVCF and or its assigns. In the event that
Debtors fail to deliver the Special Warranty Deeds to BVCF and or its assigns on or
before the date specified in this paragraph, BVCF shall have the :right to term.in.ate this
Agreement in its sole and absolute discretion.
(b)
Bills of Sale. Within one (1) business day following the Effective Date
( defined below) and contemporaneously ·with the receipt of the Cash Payment, Debtors
will provide BVCF with the valid, executed Bills of Sale transferring the Business
Personal Property to BVCF. In the event that Debtors fail to deliver the Bills of Sale to
BVCF on or before the date specified in this paragraph, BVCF shall have the right to
tenninate this Agreement in its sole and absolute discretion.

(c)
Operating Cash. Debtors shall continue to operate the Properties
pursuant to the terms of the agreed upon cash collateral orders and cash collateral
budgets1 up to the Closing Date. All of Debtors' operating cash [defined as revenue as of
WEST\224711480.1

3

App. 53

20-40515.301

Case 4:17-cr-00193-MAC-KPJ Document 80-4 Filed 12/03/19 Page 5 of 26 PageID #: 557

the Closing Date, less the amounts required to be spent by Debtors prior to the ·Closing
Date under the agreed upon cash collateral orders and cash collateral budgets or the
actual accrued expenses, whichever is less, and reasonable and necessary operating
expenses as established by normal hotel operating standards, save and except property
taxes or any other Assumed Liabilities ("Excess Operating Cash"), accrued up to the
Closing Date will remain with Debtors on the Closing Date; however, in the event that
-the Closing Date occurs on or after October l, 2011, then any increase in Excess
Operating Cash accruing on and after October 1, 2011 will be credited to BVCF by
reducing the amount of the Cash Payment due to Debtors on the Closing Date. At the
time of closing, Debtors will provide an accounting of Excess Operating Cash
accwnulated on or after October 1, 2011.

(d)
Accounts Receivable. All of the accounts receivable related to the
Properties accrued prior to the earlier of the Closing Date or October 1, 2011 will remain
the property of Debtors, regardless of when such receivables are actually collected. All
other accounts receivable related to the Properties will become the property of BVCF as
of the Closing Date or October 1, 2011, whichever is earlier, or will be credited to BVCF
by reducing the amount of the Cash Payment due to Debtors on tjie Closing Date.

(e)
Management and Management Fees. Debtors may continue to pay the
management fees for the management of the Properties through the earlier of the Closing
Date or September 30, 201 1, but in any event Debtor shall not pay any management fees
from the revenues of the Properties on or after October 1, 2011 . None of the Settling
Parties shall unreasonably delay the Closing Date. If this agreement is terminated or
Closing is unreasonably delayed by BVCF (past November 30, 2011), then Debtors may
pay reasonable management fees.
(f)
Absolu.te Conveyance. The conveyance of the Assets by Debtors to
BVCF at Closing pursuant to this Agreement is an absolute conveyance of all of Debtors'
right, title and interest in and to the Assets and is not intended as a mortgage, deed of trust
or security instrument of any kind, and Debtors shall have no further interest in or claim
to the Assets or any rents, profits or proceeds therefrom.
2.3
Closing Date. The date on which Debtors deliver the executed Special Warranty
Deeds and Bills of Sale to BVCF as specified herein will be referred to herein as the "Closing
Date." The exchange of consideration described in this Agreement on the Closing Date will be
referred to herein as the "Closing.''

2.4

Escrow Agent and Closing. Stewart Title, North Texas Division (the c'Escrow

Agent") shall act as "the person responsible for closing'' the transaction described herein within
the meaning of Section 6045(e) of the Intemal Revenue Code of 1986, as amended, and to file all
forms and returns required thereby. If Escrow Agent is unable to provide to BVCF a closing
protection letter satisfactory to BVCF in BVCF's sole and absolute discretion issued by the.
underwriter of the Title Policy (as defined in Section 4.3), then BVCF may select another title
agency or company to act as Escrow Agent.

WES1\2247l 1480.l

4

App. 54

20-40515.302

Case 4:17-cr-00193-MAC-KPJ Document 80-4 Filed 12/03/19 Page 6 of 26 PageID #: 558

2.5
Bindjng Agreement fol'" Conveyance of Assets. This Agreement supersedes all
other written or oral agreements between the Settling Parties concerning the transfer of the
Assets to BVCF. If Debtors and BVCF execute any separate escrow instructions with respect to
the transfer of the Assets on Escrow Agent's form, as may be modified by Debtors and BVCF in
the sole discretion of Mch, and if there is any conflict or inconsistency between any provision of
such escrow instructions and any provision of this Agreement, the provision of this Agreement
will control.
Section 3.

RELEASES, ASSUMED LIABILITIES, INDEMNIFICATION

3.1
Jomt Release of AJl Other Claims. As of the Closing Date, each Settling Party
expressly, on behalf of itself and its predecessors, successors and assigns, hereby fully, forever
and finally waives, releases and discharges, the other Settling Party, and each of the Settling
Parties, and each of thefr employees, agents, representatives, independent contractors,
consultants, experts, attorneys, accountants, trustees, parents, subsidiaries, affiliates, partners,
predecessors, successors, heirs, and assigns, and all persons or entities acting by, through or on
behalf of any of them, of and from any and all claims, rights, duties, actions, causes of action,
torts or tort liability, duty of care liability claims, alter ego claims, contracts, damages, losses,
debts, obligations, agreements, liabilities, indemnifications, environmental or other regulatory or
governmental claims or obligations, attorneys' fees, costs, expenses, settlements, judgments,
fines, restitution or forfeitures, of any nature whatsoever, whether asserted or unasserted, known
or unknown, suspected or unsuspected, fixed or contingent, and whether arising under state
statutory law, federal statutory law, state common law, federal common law or otherwise, which
arise out of 01: are related to, any of the facts or claims that any of the Settling Parties asserted or
could have asserted in the Bankruptcy. For clarification and the avoidance of doubt, the Settling
Parties agree that this Agreement is intended to forever extinguish all indebtedness, claims,
causes of action, counterclaims. and cross-claims, that exist, existed, or may exist through the
Effective Date, and that any of the Settling Parties or any person or entity related to them may
have, has asserted, or could have asserted, against any of the other Settling Parties or any person
or entity related to them, relating to or in connection with the Banla:uptcy, the Assets, Loan
Agreements, Notes, and Loan Documents as amended by the Allonges, and the relationship or
dealings between or among any of the Settling Parties.

3.2
Discharge of Debtors' and Guarantor's Claims. Effective upon the Closing
Date, (i) Debtors and Guarantor hereby forever release and discharge BVCF and their successors,

assigns, and past, present and future affiliates, partners, participants, members, officers, directors,
employees, shareholders, attorneys and agents from any and all liabilities, duties, responsibilities,
obligations, claims, demands, actions, causes of action, cases, controversies, damages, costs,
losses and expenses now existing or hereafter arising out of or in any way relating to or
connected with, directly or indirectly, the Loan Agreements, Notes, Loan Documents and the
Assets; and (ii) Debtors and Guarantor hereby irrevocably release and waive any and all
statutory~ common law and equitable rights of redemption with respect to the Assets.

3.3
BVCF Assumed Liabilities. BVCF will assrune, pay, or be responsible for the
payment or satisfaction of the following liabilities existing as of the Closing Date (collectively
the "JlVCF Assumed Liabilities"): (a) all past-due and 2011 Ad Valorem real property taxes on
the Assets, in the amounts set forth in the schedules and/or statement of financial affairs filed by

¥lES1\2247l 1480.l

5

App. 55

20-40515.303

Case 4:17-cr-00193-MAC-KPJ Document 80-4 Filed 12/03/19 Page 7 of 26 PageID #: 559

Debtors in the Bankruptcy Proceedings, (b) all unpaid pre-petition La Quinta franchise fees, in
the amounts set forth in the schedules and/or statement of financial affairs filed by Debtors in the

Bankruptcy Proceedings, and (c) all liens on the Assets including the satisfaction of any liens
relating to 2010 Ad Valorem real property taxes on the Assets, in the amounts set forth in the
schedules and/or statement of financial affairs filed by Debtors in the Bankruptcy Proceedings_
In addition to the foregoing, BVCF shall indemnify and hold harmless Guarantor from any and
all personal liability Guarantor may have arising from the BVCF Assumed Liabilities. All
liabilities accrued prior to the Closing Date and not a BVCF Assumed Liability will remain the
responsibility of the original obligor(s) thereof.
3.4
Debtors' Indemnification of BVCF. Except as may be set forth in this
Agreement, BVCF is not assuming or responsible for any of Debtors' liabilities, debts or
obligations of any nature, and, in addition to the release and indemnification obligations set forth
elsewhere in this Agreement, Debtors shall at all times indemnify and hold BVCF harmless from
and against any claim, cause of action, liability, loss or damage incurred by BVCF, directly or
indirectly resulting from or arising out of (a) any claim arising from the conveyance, transfer and
assignment of the Assets, save and except any sales, income or other tax which may become
payable by reason of the conveyance, transfer and assignment of Assets, if any; (b) any costs or
expenses of Debtors incurred in negotiating, entering into and carrying out its obligations
pursuant to this Agreement~ (c) any torts committed by Debtors or their employees or agents
prior to the Closing Date; (d) the business of Debtors or the management of the Assets prior to
the Closing Date; (e) any liabilities or obligations of Debtors other than the BVCF Asswned
Liabilities and not otherwise expressly assumed by BVCF under this Agreement; and (f) any
inaccuracy in any representation or warranty of Debtors under this Agreement or any document
delivered or to be delivered by Debtors pursuant to this Agreement.
Section 4.

CLOSING.

4.1
Date and Place. Closing will take place on the Closing Date in the offices of
Escrow Agent.
4.2
Debtors' Closing Deliveries.
deliver to Escrow Agent for Closing:

On or before the Closing Date, Debtors shall

(a)
Special Warranty Deeds in a form substantially similar to Exhi bit C
attached to this Agreement, fully executed and properly acknowledged by Debtors,
conveying to BVCF and or its assigns the Properties "as is, where is";

(b)
Bills of Sale in a fonn substantially similar to Exhibit D attached to this
Agreement, fully executed by Debtors, transferring to BVCF the Personal Property;
(c)
An Assignment and Assumption of Contracts and Pennits in a form
substantially similar to Exhibit E attached to this Agreement, fully executed by Debtors

and effective as of the Closing Date, assigning to BVCF all of Debtors' right, benefits and
privileges under the Contracts and the Permits (both as defined in that Assignment),
together with the originals of all such Contracts and Permits;

W.ESl\2247 l1480.1

6

App. 56

20-40515.304

Case 4:17-cr-00193-MAC-KPJ Document 80-4 Filed 12/03/19 Page 8 of 26 PageID #: 560

(d)
A Deed in Lieu of Foreclosure Certificate in the form of E::dtlbit F,
attached to th.is Agreement, fully executed by Debtors and Guarantor;
(e)

A Non-Foreign Certification in Escrow Agent's standard form, fully
executed by Debtors, as required by Internal Revenue Code Section 1445(b)(2);

(t)

Written evidence that this Agreement and the transaction described herejn

have been authorized and approved by all necessary coqiorate or company action of

Debtors;

(g)
Any other funds, instruments or documents as may be reasonably
requested by BVCF or Escrow Agent or reasonably necessary to affect or carry out the
purposes of this Agreement (which funds, instruments or docwnents are subject to
Debtors, prior approval, which approval may not be unreasonably withheld, conditioned
or delayed).

4.3

BVCF's Closing Deliveries. On or before the Closing Date, BVCF shall deliver
to Escrow Agent for Closing:
(a)

The Bill of Sale referred to in Section 4.l(b), fully executed by BVCF;

The Assignment and Assumption of Contracts and Permits referred to in
Section 4.l(c), fully executed by BVCF;
(b)

(c)
Any other funds, instruments or documents as may be reasonably
requested by Debtors or Escrow Agent or reasonably necessary to effect or carry out the
purposes of this Agreement (which funds, instruments or documents are subject to
Debtors' prior approval, which approval may not be unreasonably withheld, conditioned
or delayed); and
(d)

The Cash Payment referenced in Section 2.1.

4.4
Closing Costs. Unless otherwise specified in tlris Agreement, each party must
bear its own costs (including but not limited to attorney fees and costs) in connection with its
negotiation, due diligence investigation and conduct of the transaction and settlement described

in this Agreement. All other costs associated with the transaction described herein must be borne
by the parties in accordance with custom in the county where the Assets are located, as
determined by Escrow Agent, unless otherwise specified in this Agreement. Notwithstanding the
foregoing, BVCF shall be responsible for escrow costs and title insurance> if any.

4.S

Possession. BVCF will be entitled to possession of the Assets on the Closing

Section 5.

DEBTORS' REPRESENTATIONS AND WARRANTIES. Debtors represent

Date,

and warrant to BVCF that:

WESTIU4711480.J

7

App. 57

20-40515.305

Case 4:17-cr-00193-MAC-KPJ Document 80-4 Filed 12/03/19 Page 9 of 26 PageID #: 561

5.1
Title. Debtors have fee simple title to the Propertjes. To Debtors) knowledge,
there are no l.Ull'ecorded agreements, liens or . encumbrances which may affect title to the
Properties.
5.2
Other Agreements. Debtors shall not, prior to any termination of this
Agreement, enter into or execute any sale agreement, lease, easement, voluntary encumbrance or
other agreement with respect to the Assets without BVCF's prior written consent.

5.3
Authority. Debtors have full power and authority to enter into this Agreement
and complete the transaction described herein. Upon the Effective Date, this Agreement will be
binding and enforceable against Debtors in accordance with its ten:ns, and upon Debtors'
execution of the additional documents contemplated by this Agreement, they will be binding and
enforceable against Debtors in accordance with their tenns.
S.4
Consents. Other than any approval required from the Bankruptcy Court, neither
the execution and the delivery of this Agreement nor the consummation of the transaction
contemplated herein is subject to any requirement that Debtors obtain any consent, approval or
authorization of, or make any declaration or filing with, any governmental authority or third
party which has not been obtained or made or which, in any case or in the aggregate, if not
obtained or made would render the execution, delivery or consummation illegal or invalid, o,:would constitute a default under this Agreement, or result in the creation of any lien, charge or
encumbrance upon the Assets.

5.5
Criminal Investigatfon. Debtors have no knowledge of the existence of any
criminal investigation concerning Debtors or any of Debtors' shareholders, officers, directors,
partners, or members, as applicable, which may result in a forfeiture of all or any portion of the
Assets.
S.6
Bankruptcy Proceedings. All statements made under oath by Debtors during the
Bankruptcy Proceedings were true and correct at the time they were made, and remain so as of
the Effective Date and the Closing Date. All documents filed under oath by the Debtors during
the Bankruptcy Proceedings (included but not limited to the schedules and statements of
financial affairs) were true, correct, and complete at the time they were filed, and remain so as of
the Effective Date and the Closing Date.

The foregoing representations and warranties must be true, correct and complete on and as of the
Effective Date and on and as of the Closing Date. All representations and warranties by Debtors
set forth in this Agreement will survive the delivery and recordation of the Deeds in Lieu and the
consummation of this Agreement.
Section 6.
BVCF'S REPRESENTATIONS AND WARRANTIES. BVCF represents and
warrants to Debtors that:

6.1

Authority. BVCF has full power and authority to enter into this Agreement and
complete the transaction contemplated herein. On the Effective Date, this Agreement will be

binding and enforceable against BVCF in accordance with its terms, and upon BVCF's execution
of the additional documents contemplated by this Agreement, they will be binding and
enforceable against BVCF in accordance with their tenns.
WEST\224711480.1

8

App. 58

20-40515.306

Case 4:17-cr-00193-MAC-KPJ Document 80-4 Filed 12/03/19 Page 10 of 26 PageID #: 562

6.2

Consents. Other than any approval required from the Bankruptcy Court, neither

the execution and the delivery of this Agreement nor the consummation of the transaction
described herein is subject to any requirement that BVCF obtain any consent, approval or
authorization of, or make any declaration or filing with, any governmental authority or third
party which has not been obtained or made or which, in any case or in the aggregate, if not
obtained or made would rendeJ: the execution, delivery or consummation illegal or invalid, or
would constitute a default under this Agreement.
The foregoing representations and warranties must be true, correct and complete on and as of the
Effective Date and on and as of the Closing Date. All representations and warranties by BVCF
set forth in this Agreement will survive the delivery and recordation of the Special Warranty
Deeds and the consummation of this Agreement.

Section 7.

MUTUAL REPRESENTATIONS, COVENANTS AND

WARRANTIES

Each of the Settling Parties represents, warrants and agrees with the other Settling Parties
as follows:
7.1

Independent Advice. Each Settling Party has received independent legal advice
from its attorneys with respect to each of the matters contained herein, including the advisability
of entering into the settlement and providing the Cash Payment, Special Warranty Deeds, Bills of
Sale. and executing this Agreement and the other transactions contemplated herein.
7.2
Reliance. Except as expressly stated in this Agreement, none of the Settling
Parties, and none of the Settling Parties' officers, members, managers, agents, partners,
employees, representatives, or attorneys has made any statement or representation to any person
regarding any fact relied upon in entering into this Agreement, and the Settling Parties are not
relying on any statement, representation or promise of any Settling Party or any other person (or
of any officer, agent, employee, representative, or attorney for any other person) in executing this
Agreement. Rather> except as expressly set forth in this Agreement, each Settling Party is
relying exclusively on its own diligence and investigation in entering into this Agreement.
7.3
Diligence and Investigation. Each Settling Party has made such investigation of
the facts pertaining to this Agreement and of all the matters pertaining thereto as it deems
necessary.

Understanding. Each Settling Party has read this Agreement and understands the
7.4
contents hereof and has discussed the terms of the Agreement with its own legal counsel.

7.5
No Assignment. No Settling Party has assigned) sold, pledged, transferred, by
operation of law or otherwise, any claim, right, cause of action. demand, obligation, liability or
interest that the Settling Party is releasing under the terms of this Agreement.
Section 8.
RISK OF LOSS. The risk of loss will be upon Debtors until Closing. In the
event of any loss or damage to or condemnation of the Assets following BVCF's execution of
this Agreement but prior to Closing, BVCF may terminate this Agreement. If BVCF waives any
loss or damage to or condemnation of the Assets and proceeds to consummate the transaction
contemplated herein) subject to approval by the Bankruptcy Court, Debtors shall, at Closing and
W.EST\2:24711480.)

9

App. 59

20-40515.307

Case 4:17-cr-00193-MAC-KPJ Document 80-4 Filed 12/03/19 Page 11 of 26 PageID #: 563

as a condition precedent to Closing, pay to BVCF the amount of any insurance or condemnation
proceeds attributable to the Assets which have been received by Debtors or Guarantor and assign
to BVCF as of Closing all rights or claims to proceeds payable thereafter. Debtors shall, at
Debtors' sole cost, take reasonable steps to protect the Assets from damage and deterioration
prior to Closing.

Section 9.

CONDITIONS

OF

SETTLEMENT,

CANCELLATION OR TERMINATION
9.1

EFFECT

OF

DISAPPROVAL,

Effective Date. This Agreement shall become effective on the first date (the

"Effective Date'') on which each of the following has occurred:

(a)

Execution. Tiris Agreement has been fully executed; and

(b)
Entry of Orders. The Bankruptcy Court has entered orders granting
dismissal of the Bankruptcy Proceedings, or Confmning the Amended Joint Plan of
Reorganization (the ''Final Orders").

9.2
Termination Date. If the Bankruptcy Court does not enter one of the Final
Orders, or if the Bankruptcy Court enters one of the Final Orders and appellate review is sought
and, on such review, the entry of the Final Orders is finally vacated, modified or reversed, then
BVCF or the Debtors shall have the right to· terminate at their election. The Dismissal Motion
shall be filed with negative notice language as allowed for under the Bankruptcy Court's local
rules. If any objection to the Dismissal Motion is filed within the time set forth in the Dismissal
Motion, the Debtors shall inunediately request a hearing be set at the Bankruptcy Court's earliest
available setting. If no objection to the Dismissal Motion is filed within the time set forth in the
Dismissal Motion, and the Bankruptcy Court has not entered an order granting the Dismissal
Motion within ten days of the expiration of the objection period, the Debtors shall immediately
request a hearing be set at the Bankruptcy Comfs earliest available setting. The Debtors shall
not be permitted to terminate the Agre.ement prior to December 1, 2011 ..
9.3

Effect of Termination. Unless otherwise ordered by the Bankruptcy Court, in

the event that this Agreement shall not become effective on or prior to the Termination Date or
this Agreement should terminate, or be cancelled, or otherwise fail to become effective for any
reason, • the tenns of this Agreement are not incorporated into, or approved by the Bankruptcy
Court as part of a proposed plan of reorganization of Debtors as set forth in Section 1, or the
Final Orders are reversed or vacated following any appeal taken therefrom, then:

(a)
the Settling Parties shall be restored to their respective positions as of
August 23, 2011 with all of their respective claims and defenses, preserved as they
existed on th.at date. The Settling Parties shall file such documents as are necessary to
cause such claims and defenses to be restored; and

(b)
the tenns and provisions of this Agreement shall be null and void and shall
have no further force or effect with respect to the Settling Parties, and neither the
existence nor the terms of this Agreement (nor any negotiations preceding this
Agreement nor any acts performed pursuant to, or in furtherance of, this Agreement)

W.ESl\2247) 1480.1

10

App. 60

20-40515.308

Case 4:17-cr-00193-MAC-KPJ Document 80-4 Filed 12/03/19 Page 12 of 26 PageID #: 564

shall be used in any action or proceeding for any purpose prohibited by Federal Rule of
Evidence 408; and
(c)
any judgment or order entered by the Bankruptcy Court in accordance
with the terms of this Agreement shall be treated as vacated, nunc pro tune.

Section 10.

NO ADMISSIONS

10.1 No Admissions. The Settling Parties intend this Agreement and the settlement
described herein to be a final and complete resolution of all disputes between them with respect
to the Bankruptcy Proceedings, and it shall not be deemed an admission by any Settling Party as
to the merits of any claim or defense that was asserted int or that could have been asserted in, the
Bankruptcy Proceedings.
10.2 Agreement Inadmissible. Neither this Agreement nor the settlement by Settling
Parties, nor any act performed or document executed pursuant to or in furtherance of this
Agreement or the settlement is, or may be deemed to be or may be used as an admission of, or
evidence of, any liability, fault or omission of the Settling Parties in any civil, criminal or
administrative proceeding in any court, administrative agency or other tribunal. Neither this
Agreement nor the settlement, nor any act performed or document executed pursuant to or in
furtherance of this Agreement or the settlement shall be admissible in any proceeding for any
purpose, except to seek approval of or to enforce the terms of the settlement.
10.3 Recitals Not Binding. In the event that the settlement is terminated or does not
receive preliminary or final cowt approval, the Recitals set forth in the Agreement shall not
constitute binding admissions, statements against interest or be admissible as evidence in any
proceedings between or involving one or more of the Settling Parties to establish any fact,
waiver, estoppel, contention, assertion or allegation of any kind or nature whatsoever.
Section 11. CONFIDENTIALITY. As further consideration for this Agreement, the Settling
Parties hereto agree to keep the tenns and conditions of this Agreement confidential as well as
any information disclosed pursuant to this Agreement, but this provision shall not preclude
Debtors in any way from making all of the disclosures that are necessary to secure the
Bankruptcy Court's approval of the settlement. Except as pennitted elsewhere in this paragraph,
disclosure of the foregoing shall be permitted only upon order of a court, governmental and/or
administrative agency of competent jurisdiction. This Agreement shall not be used as evidence
in any proceeding other than one to approve or enforce this Agreement, or one seeking damages
arising from a breach of this Agreement. Further, any information disclosed by the Settling
Parties (other than to the Bankruptcy Court) pursuant to this Agreement shall be used for the sole
purpose of attempting to resolve any potential disputes contemplated under this Agreement. An
alleged breach or an actual breach of this confidentiality provision does not excuse any Settling
Party's continued performance of this Agreement.

Section 12.

MISCELLANEOUS PROVISIONS

12.1 Intent/Fu..the.. Assu..ances. The Settling Parties: (a) acknowledge that it is their
intent to conswnmate this Agreement; and (b) ag,:ee to cooperate to the extent reasonably

WEST\224711480.J

11

App. 61

20-40515.309

Case 4:17-cr-00193-MAC-KPJ Document 80-4 Filed 12/03/19 Page 13 of 26 PageID #: 565

necessary to effectuate and implement all tenns and conditions of this Agreement and to exercise
their best efforts to accomplish the foregoing terms and conditions of this Agreement.

12.2 Good Faith. The Settling Parties agree that the Agreement as described herein
was negotiated in good faith by each of the Settling Parties, and reflect a settlement that was
reached voluntarily after consultation with competent legal counsel.
12.3 Disclosure. Nothing in this Agreement shall prohibit any comment on the
accuracy of any public description of the settlement.
12.4 Integration. Any exhibits to this Agreement are material and integral parts
hereof and are fully incorporated herein by this reference.

12.5 Amendments. This Agreement may be amended or modified only by a written
instrument signed by or on behalf of all Settling Parties, as the case may be, or their respective
successors-in-interest.
12.6 Authority. Each counsel or other person executing this Agreement or any of its
exhibits on behalf of any party hereto hereby warrants that such person has the full authority to
do so.
12.7 Counterparts. This Agreement may be e~ecuted by facsimile or e-mail and in
one or more counterparts. All executed counterparts and each of them shall be deemed to be one
and the same instrument. Counsel for the parties to this Agreement shall exchange among
themselves original signed counterparts and a complete set of executed counterparts shall be
filed with the Bankruptcy Court.

12.8 Successors and Assigns. This Agreement shall be binding upon, and inure to the
benefit of, the successors and assigns of the parties hereto, including any corporation or other
entity into or with which any party merges, consolidates or reorganizes.

12.9

Jurisdiction. The United States Bankruptcy Court for the Eastern District of

Texas shall retain jurisdiction with respect to implementation and enforcement of the tenns of
this Agreement, and all parties hereto submit to the jurisdiction of such Bankruptcy Court for
purposes of implementing and enforcing the settlement embodie;d in this Agreement.

12.10 Governing Law. This Agreement and any exhibits hereto shall be considered to
have been negotiated, executed and delivered, and to be wholly performed, in the State of Texas,
and the rights and obligations of the parties to this Agreement shall be construed and enforced in
accordance with, and governed by, the internal, substantive laws of the State of Texas, without
giving effect to that State's choice of law principles.
12.11 Interp:retation. Each of the Settling Parties} including their counsel, has
participated in the preparation of this Agreement, and this Agreement is the result of the joint
efforts of the Settling Parties. This Agreement has been accepted and approved as to its final
fonn by all Settling Parties and upon the advice of their respective counsel. Accordingly, any
uncertainty or ambiguity existing in this Agreement shall not be interpreted against any Settling
Party as a result of the manner of the preparation of this Aweement. Each Settling Party agrees

W.EST\224711480.1

12

App. 62

20-40515.310

Case 4:17-cr-00193-MAC-KPJ Document 80-4 Filed 12/03/19 Page 14 of 26 PageID #: 566

that any statute or rule of construction providing that ambiguities are to be resolved against the
drafting Settling Party shall not be employed in the interpretation of this Agreement and are
hereby waived.

12.12 Entire Agreement. This Agreement constitutes the entire agreement between the
Settling Parties and no representations, warranties or inducements have been made to any party
concerning this Agreement or any of its exhibits other than the representations, warranties and
covenants contained and memorialized in such documents. It is understood by the Settling

Parties that, except for the matters expressly represented herein, the facts or law with respect to
which this Agreement is entered into may tum out to be other than or different from the facts

now known to each party or believed by such party to be true; each party therefore expressly
assumes the risk of the facts or law turning out to be so different, and agrees that this Agreement
shall be in all respects effective and not subject to tennination by reason of any such different
facts or law. The prevailing party in any dispute under this Agreement shall be entitled to its
attorneys' fees and costs.

IN WITNESS WHEREOF, the parties hereto have caused this Agreement to be executed.
SWHG Hospitality, Ltd

Name: AA;l!1rv"/>ea.,,. J',...., ~
Title:
~l'lrvl\c;e"R.

Allen Hospitality, LLC

r

f

Date:

£[

Name:

Date:

Title:

Manpreet Singh

Cj-JS--11
Name:

Title:

WEST\224711480.1

A.,{/riv /J(?e7:,. "( J', Nl;'tt

Date:

,M/t"tvl'r~o?-.

13

App. 63

20-40515.311

Case 4:17-cr-00193-MAC-KPJ Document 80-4 Filed 12/03/19 Page 15 of 26 PageID #: 567

BV Capital Funding, LLC

Date:

Name:

Title:

WES'N2471 l480. l

14

App. 64

20-40515.312

Case 4:17-cr-00193-MAC-KPJ Document 80-4 Filed 12/03/19 Page 16 of 26 PageID #: 568

EXHIBIT A-1
DESCRIPTION OF REAL PROPERTY

WEST\224711480.l

App. 65

20-40515.313

Case 4:17-cr-00193-MAC-KPJ Document 80-4 Filed 12/03/19 Page 17 of 26 PageID #: 569

EXHIBIT A-2
DESCRIPTION OF BUSINESS PERSONAL PROPERTY

WEST\2247lJ480.l

App. 66

20-40515.314

Case 4:17-cr-00193-MAC-KPJ Document 80-4 Filed 12/03/19 Page 18 of 26 PageID #: 570

EXHIBITB

AGREED MOTION TO DISMISS BANKRUPTCY PROCEEDINGS

WEST\224711480.1

App. 67

20-40515.315

Case 4:17-cr-00193-MAC-KPJ Document 80-4 Filed 12/03/19 Page 19 of 26 PageID #: 571

EXHIBITC

SPECIAL WARRANlY DEED
[insert Texas Warranty Deed form]

This Warranty Deed is given in lieu of foreclosure pursuant to the Stipulation, Settlement
and Release Agreement, dated
, by and between (among others) Grantor
and
("Lender''), as partially assigned by Lender to Grantee (the
"Agreement"). In accordance with the Agreement, (i) the interest of Grantee in the Real
Property under this Warranty Deed shall not merge with the interest of Lender in the Real
Property under that certain Deed of Trust, Assignment of Leases and Rents, Security Agreement
and Fixture Filing, dated___; from Grantor for the benefit of Lender, recorded on
as
with the County Reco;{der of _ _ County, _
(the "Deed of
Instrument No.

Trust"), but shall be and remain at all times separate and distinct, notwithstanding any union of
said interests in Grantee or Lender at any time by purchase, teuni:nation or otherwise; and (ii) the
lien of the Deed of Trust on the Real Property shall be and remain at all times a valid and
continuing lien on the Real Property until released of record by Lender or its successors and
assigns.

WEST\224711480.1

App. 68

20-40515.316

Case 4:17-cr-00193-MAC-KPJ Document 80-4 Filed 12/03/19 Page 20 of 26 PageID #: 572

EXIUBITD

BILL OF SALE
- - - - - -- - - - - -- - -- - - - - - - ('•Transferor"), for good
and valuable consideration, the receipt and sufficiency of which are hereby acknowledged, does
hereby convey, transfer and assign to
(''Transferee")
the personal property described on Exhibit "A" attached hereto, including all warranties in
connection with the same and the right to sue on any claim under such warranties (the "Personal
Property").
Transferor represents and warrants to Transferee that Transferor is the lawful owner of the
Personal Property and the Personal Property is free and clear of all liens, claims and
encumbrances in favor of any third party. Transferor shall defend the title to the Personal
Property in Transferee against all claims by any others whatsoever.
SWHG Hospitality, Ltd

Date:

Accepted by:
BV Capital Funding, LLC

Name:

Date:

Title;

WEST\224711480.1

App. 69

20-40515.317

Case 4:17-cr-00193-MAC-KPJ Document 80-4 Filed 12/03/19 Page 21 of 26 PageID #: 573

BILL OF SALE

- - - - - - - - - - - - - - - - - - - - - - ("Transferor''), for good

and valuable consideration, the receipt and sufficiency of which are hereby acknowledged, does
hereby convey, transfer and assign to
("Transferee'')
the personal property described on Exhibit "A'' attached hereto, including all warranties in
connection with the same and the right to sue on any claim under such warranties (the "Personal

Property'').

Transferor represents and warrants to Transferee that Transfero( is the lawful owner of the
Personal Property and the Personal Property is free and clear of all liens. claims and
encumbrances in favor of any third party. Transferor shall defend the title to the Personal
Property in Transferee against all claims by any others whatsoever.

Allen Hospitality, LLC

Date:

Accepted by:
BV Capital Funding, LLC

Name;
Title:

WESTU24711480.l

Date:

2

App. 70

20-40515.318

Case 4:17-cr-00193-MAC-KPJ Document 80-4 Filed 12/03/19 Page 22 of 26 PageID #: 574

EXHIBITE

ASSIGNMENT AND ASSUMPTION OF CONTRACTS
THIS ASSIGNMENT AND ASSUMPTION OF CONTRACTS AND PERMITS (this
"Assignment'') is made as of
(the "Effective Date"), by and
between Manpreet Singh, SWHG Hospitality, Ltd. and Allen Hospitality, LLC (collectively
.. Assignor"), and BV Capital Funding, LLC ("Assignee").

RECITALS:
A.
Assignor is presently the holder of the interest of the person to whom service is
due under the contracts described in the attached Exhibit "A" (the "Contracts").

B.

Assignor is presently the holder of the pennits, certificates, licenses and other

approvals described in the attached Exhibit "B" (the "Permits").

C.
Pursuant to the Stipulation, Settlement and Release Agreement, dated
- - - - ~ - - -' by and between (among others) Assignor and Assignee, Assignor is
assigning to Assignee and Assignee is acquiring all of Assignor's interest in, to and under the
Contracts and the Permits.
AGREEMENTS:

NOW, THEREFORE; for good and valuable consideration, the receipt and sufficiency of
which are hereby acknowledged, Assignor and Assignee agree as set forth below.
1.
Assignment. Assignor hereby assigns, conveys, transfers and sets over unto
Assignee all ofAssignor's interest in the Contracts and the Permits.
Assumption. Assignee hereby assumes and agrees to pay all sums and to perfonn
and comply with all covenants and obligations that are to be paid, performed and complied with
by the holder of the interest of the person to whom service is due wider the Contracts and by the
permittee or licensee under the Permits from and after the Effective Date.

2.

Indemnification of Assignee. Assignor shall indemnify Assignee against, and
3.
agrees to hold Assignee harmless from, all liabilities, obligations, actions, suits, proceedings or
claims, and all costs and expenses (including but not limited to reasonable attorney fees and
costs) arising out of or in connection with the Contracts and the Permits based upon an event
occurring or alleged to have occm:red before the Effective Date.
4.
IndemnifiScation of Assignor. Assignee shall indemnify Assignor against, and
agrees to hold Assignor harmless from, all liabilities, obligations) actions, suits, proceedings or
claims, and all costs and expenses (including but not limited to reasonable attorney fees and

WES1'.22.47l 1480.1

App. 71

20-40515.319

Case 4:17-cr-00193-MAC-KPJ Document 80-4 Filed 12/03/19 Page 23 of 26 PageID #: 575

costs) arising out of or in connection with the Contracts and the Permits based upon an event
occurring or alleged to have occurred on or after the Effective Date.
5.

Binding Effect. This Assignment shall inure to the benefit of and shall be binding

upon the parties hereto and their respective successors and assigns.

IN WITNESS WHEREOF, Assignor and Assignee have executed this Assignment as of
the Effective Date.
[insert signature blocks]

SWHG Hospitality, Ltd

Date:

Allen Hospitality, LLC

Date:

Manpreet Singh

Name:
Title:

MAN.fJICt::,Tf S,1Uft1f

LfA:;vtr;,a)_

Date:

BV Capital Funding, LLC

Date:

Name:
Title:

WEST\224711480.1

2

App. 72

20-40515.320

Case 4:17-cr-00193-MAC-KPJ Document 80-4 Filed 12/03/19 Page 24 of 26 PageID #: 576

EXHIBITF
DEED IN LIEU OF FORECLOSURE CERTIFICATE
THIS DEED IN LIEU OF FORECLOSURE CERTIFICATE (this "Ce:rtifieate") is
by SWHG Hospitality, Ltd. and Allen Hospitality, LLC
executed
(collectively the "Borrower"), and Manpreet Singh (the "Guarantor''), in favor of BV Capital
Funding, LLC ("Lender"), pursuant to that certain Stipulation, Settlement and Release
by and among Borrower, Guarantor and Lender (the
Agreement, dated
"Agreement''). All capitalized terms not otherwise defined in this Certificate have the meanings
given them in the Agreement.
Borrower and Guarantor (the "Borrower Parties") hereby jointly and severally certify,

x-epresent and warrant to Lender and its respective successors and assigns, as follows:

1.
Borrower is executing and delivering to Buyer Special Warranty Deeds, of even
date herewith (the "Deed"), and the Borrower Parties are executing and delivering the other
instruments and docwnents required to be delivered pursuant to the Agreement (together with the
Deed the "Closing Documents»). This Certificate is made to induce Buyer to accept the Deed
and the other Closing Documents for the benefit and protection of the Lender Parties and their
successors, grantees, assigns, title insurers and all other parties hereafter dealing with the Lender
Parties or who may acquire any interest in the Assets, all of whom may ;rely on this Certificate.
2.
The execution and delivery by the Borrower Parties of the Agreement and the
Closing Documents are not the result of duress, threats, intimidation, undue influence, bad faith
or unconscionable conduct by Lender or any agent, attorney or othe.- representative of the
Lender. The Borrower Parties have acted freely and voluntarily and are proceeding with the
transaction contemplated by the Agreement in accordance with what they perceive to be in their
own best interests.

3.
The Bonower Parties have no creditors whose rights would be prejudiced by the
Deed. The Bonower Parties understand that the transactions contemplated by the Agreement
may have adverse tax consequences and have had the opportunity to consult with such legal,
accounting and tax advisors with respect to such consequences as they deemed advisable. The
Borrower Parties have had the opportunity to be represented by legal counsel throughout the
transactions contemplated by the Agreement.
4.
The fair market value of the Assets does not exceed the total outstanding
principal, accrued interest and other amounts due and owing under the Loan Documents. After
consummation of the transaction contemplated by the Agreement, the assets of Borrower will
equal or exceed the sum of its debts.
5.
Toe conveyance of the Assets by Borrower to Lender pursuant to the Agreement
is an absolute conveyance of all of Borrower's right, title and interest in and to the Assets and is
not il1tended as a mortgage, deed of trust or security instrument of any kind, and Borrower shall
have no further interest in or claim to the Assets or any rents, profits and/or proceeds therefrom.

WESJ\224711480.1

App. 73

20-40515.321

Case 4:17-cr-00193-MAC-KPJ Document 80-4 Filed 12/03/19 Page 25 of 26 PageID #: 577

Borrower is irrevocably releasing and waiving any and all statutory, common law and equitable
rights of redemption with respect to the Assets. In consideration for the conveyance of the

Assets to Lender and the other agreements of the Borrower Parties set forth in the Agreement,
Lender is delivering a Covenant Not to Sue to the Borrower Parties.

6.
No labor, materials or equipment have been supplied to the Properties upon which
anyone could base a mechanics' lien, equitable lien or any other type of lien against the Real
Property which has not been fully paid.
All representations and warranties made by the Borrower Parties m the
Agreement are hereby remade on and as of the Closing Date.
7.

8.
The Borrower Parties will cause their shareholders, directors, officers, employees
and agents of to testify, declare, depose or certify before any court, tribunal, official or person, in
any case now pending or hereafter arising, to the truth and accuracy of the facts set forth above.

IN WITNESS WHEREOF, the Borrower Parties have executed this Certificate to be
effective as of the date first written above.

SWHG Hospitality, Ltd

Name:

Title:

M At11/ .eer rJ K,v-tf11

~1r6ite_

Date:

Allen Hospitality, LLC

Date:

Manpreet Singh

Date:

Name:
Title:

WEST\2247 ll 480, l

2
App. 74

20-40515.322

Case 4:17-cr-00193-MAC-KPJ Document 80-4 Filed 12/03/19 Page 26 of 26 PageID #: 578

BV Capital Funding, LLC

Name:

Date:

Name:

Date:

Title:

Title:

WEST\224711480.1

3

App. 75

20-40515.323

Case 4:17-cr-00193-MAC-KPJ Document 80-5 Filed 12/03/19 Page 1 of 3 PageID #: 579

EXHIBIT E

App. 76

20-40515.324

Case 4:17-cr-00193-MAC-KPJ Document 80-5 Filed 12/03/19 Page 2 of 3 PageID #: 580

	  

	  

	  

FOR IMMEDIATE RELEASE
Media Contact:
Carol Towne, Chief Marketing Officer
214.252.4142
ctowne@plainscapital.com

PlainsCapital Bank Completes Conversion of Former Southwest Securities,
FSB Branches
DALLAS, TEXAS (April 13, 2015) – PlainsCapital Bank expanded its branch network on
Monday, April 13, with the conversion of four former Southwest Securities, FSB locations into
PlainsCapital Bank branches. Additionally all Southwest Securities, FSB products, services and
banking systems have been converted into PlainsCapital Bank operations.
The four locations are:
•
•
•
•

South Arlington, 4501 Matlock, Suite 101
Dallas Renaissance, 1201 Elm Street, Suite 121
Granbury, 1100 East Highway 377, Suite 101
Waxahachie, 1791 Highway 77 North

PlainsCapital Bank is one of the largest banks headquartered in Texas, and provides premier
customer service through 68 branch locations and online and mobile banking.
PlainsCapital Bank acquired the banking operations of Southwest Securities, FSB when Hilltop
Holdings Inc. completed its acquisition of SWS Group on January 1, 2015. Hilltop is the parent
company of PlainsCapital.
Customers with questions are encouraged to contact the PlainsCapital Bank call center at
866.762.8392, visit www.plainscapital.com/haveyouherd or branch locations.
About PlainsCapital Bank
Dallas-based PlainsCapital Bank, the fifth-largest Texas-headquartered bank by deposit market
share,1 operates 68 Texas branches and has more than 1,300 employees providing highly

App. 77

20-40515.325

Case 4:17-cr-00193-MAC-KPJ Document 80-5 Filed 12/03/19 Page 3 of 3 PageID #: 581

personalized relationship banking through a single point of contact. Offering commercial
lending, treasury management, small business banking, private banking, and trust and wealth
management services, PlainsCapital Bank empowers responsive, local decision-making in each
of its major markets: Austin, Corpus Christi, Dallas, El Paso, Fort Worth, Houston, Laredo,
Lubbock, the Rio Grande Valley and San Antonio. PlainsCapital Bank is part of the
PlainsCapital Corporation family of companies. PlainsCapital Corporation is a wholly owned
subsidiary of Hilltop Holdings (NYSE: HTH). Find more information at PlainsCapital.com.
Source:	  1SNL,	  pro	  forma	  for	  the	  merger	  with	  SWS,	  FSB.	  

App. 78

20-40515.326

APPENDIX D

Case: 20-40515

Document: 00515809076

Page: 1

Date Filed: 04/06/2021

United States Court of Appeals
for the Fifth Circuit
___________
No. 20-40515
___________
United States of America,
Plaintiff—Appellee,
versus
Manpreet Singh,
Defendant—Appellant.
______________________________
Appeal from the United States District Court
for the Eastern District of Texas
USDC No. 4:17-CR-193-1
______________________________
ON PETITION FOR REHEARING EN BANC
(Opinion 02/17/2021, 5 Cir., __________ , __________ F.3d
__________ )
Before Wiener, Southwick, and Duncan, Circuit Judges.
Per Curiam:
( X ) Treating the Petition for Rehearing En Banc as a Petition for Panel
Rehearing, the Petition for Panel Rehearing is DENIED.

No

member of the panel nor judge in regular active service of the court
having requested that the court be polled on Rehearing En Banc

App. 79

Case: 20-40515

Document: 00515809076

Page: 2

Date Filed: 04/06/2021

No. 20-40515

(Fed. R. App. P. and 5th Cir. R. 35), the Petition for Rehearing
En Banc is DENIED.
( )

Treating the Petition for Rehearing En Banc as a Petition for Panel
Rehearing, the Petition for Panel Rehearing is DENIED. The court
having been polled at the request of one of the members of the court
and a majority of the judges who are in regular active service and not
disqualified not having voted in favor (Fed. R. App. P. and 5th
Cir. R. 35), the Petition for Rehearing En Banc is DENIED.

2

App. 80

